Audit Report




OIG-14-015
Audit of the United States Mint’s Fiscal Years 2013 and
2012 Financial Statements
January 13, 2014




Office of
Inspector General
Department of the Treasury
      The Mint strives to ensure that their documents are accessible;
to obtain a Section 508 compliant copy of the Mint’s 2013 Annual Report,
                          see the Mint’s website:

                        http://www.usmint.gov/


                               Also see:

       Web Accessibility and Section 508 Compliance policy page
                                       DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF                                January 13, 2014
INSPECTOR GENERAL




            MEMORANDUM FOR RICHARD A. PETERSON, DEPUTY DIRECTOR
                           UNITED STATES MINT

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audit

            SUBJECT:               Audit of the United States Mint’s Fiscal Years 2013 and
                                   2012 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2013 and 2012. Under a contract monitored by the
            Office of Inspector General, KPMG LLP (KPMG), an independent certified public
            accounting firm, performed an audit of the financial statements of the Mint as of
            September 30, 2013 and 2012 and for the years then ended. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards and applicable provisions of Office of Management and Budget
            Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.

            The following reports, prepared by KPMG, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG found:

                •   the financial statements were presented fairly, in all material respects, in
                    accordance with U.S. generally accepted accounting principles;
                •   no matters involving internal control over financial reporting that are
                    considered material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit performed in accordance with generally accepted government
            auditing standards, was not intended to enable us to express, and we do not
            express, an opinion on the financial statements or conclusions about the
            effectiveness of internal control or compliance with laws and regulations.
KPMG is responsible for the attached auditors’ reports dated January 8, 2014, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audit at
(202) 927-5407.

Attachment
U N I T E D   S T A T E S   M I N T




 2013 ANNUAL REPORT
COVER ART: AMERICAN EAGLE BULLION COINS, CHOICE OF INVESTORS AROUND
THE WORLD
To highlight an exceptional year in gold and silver bullion coin sales, American Eagle
Bullion coins are featured on our 2013 Annual Report front cover: on the left, the obverse
and reverse of the American Eagle Gold Bullion Coin and on the right the obverse and
reverse of the American Eagle Silver Bullion Coin.
The United States Mint is the largest gold and silver bullion coin producer in the world.
Global investment in American Eagle Gold Bullion Coin sales reached more than 1.2 million
ounces in 2013.
The Liberty design that graces the American Eagle Gold Bullion Coin was created by
Augustus Saint-Gaudens and first appeared on the United States’ $20, or double-eagle
gold piece, in 1907. The American Eagle Silver Bullion Coins feature sculptor Adolph A.
Weinman’s magnificent Walking Liberty design, originally prepared and executed for
the Nation’s first circulating half-dollar coin in 1916.
DEPUTY DIRECTOR’S LETTER

I am pleased to once again present the United States Mint’s Annual
Report. Fiscal Year (FY) 2013 was another excellent year for the
United States Mint as the men and women at our six facilities
continued to deliver truly outstanding results. I could not be more
proud of this team’s accomplishments.
We have chosen to highlight our precious metal bullion coin
program in this report as we set a new record for bullion coin
volume in FY 2013. Our American Eagle Gold and Silver Bullion
Coins remain the coin of choice for investors around the world.
We mint them at our West Point and San Francisco facilities. I hope
you enjoy learning more about these beautiful and popular coins as
you review our annual report.
The United States Mint, in accordance with federal law, has
three product lines in two programs: a circulating coin program
                                                                                        richard a. Peterson
                                                                                         United States Mint
coin and medal products and our precious metal bullion coins.
                                                                                          Deputy Director
Revenue and net income increased across all three product lines
in FY 2013. Our results were outstanding in two of the three
product lines — circulating coinage for commerce and investment-grade bullion coin programs. We drove solid
performance in our numismatic and medal product segment with several well-received new products and improved
customer service.
                                                               Clearly, as the largest mint in the world, producing
                                                               circulating coins is our bread and butter. Yet there
       OUR AMERICAN EAGLE GOLD                                 is so much more that our team delivers every day
  AND SILVER BULLION COINS REMAIN                              in service to the American people. We are focused
          THE COIN OF CHOICE FOR                               on further improving the productivity of our
    INVESTORS AROUND THE WORLD.                                operations, developing new products while
                                                               enhancing the customer experience, embracing
                                                               new technologies, and minimizing our
environmental footprint. Along the way, we respect and honor the values and traditions of one of the Nation’s most
treasured institutions — the United States Mint.
CirCulating Coins
Circulating coin shipments to the Federal Reserve Banks increased 17.6 percent in FY 2013 to 10.7 billion from
9.1 billion in the prior year. Our focus on manufacturing productivity and working capital turnover enabled the

Collectively, for the past six years, our seigniorage was dominated by the portion generated by the $1 coin. There
was no such $1 coin seigniorage in FY 2013 as circulating $1 coin production was suspended early in FY 2012.
Improved demand for the quarter-dollar coin and the impressive cost-reduction efforts of our teams in Denver and
Philadelphia led the way.




                                                         1
Bullion
The United States Mint is the world’s largest producer of gold and silver bullion coins, and investors around the
globe drove record unit sales in FY 2013. Gold ounce sales were up over 50 percent from the prior year to over 1.2
million ounces. Silver ounce sales were up over 30 percent from the prior year to nearly 45 million ounces. We are
proud of our role as a bellwether in the global bullion coin market and are positioned for additional growth in 2014.
We listened to our bullion coin customers and plan to resume sales of our one-ounce platinum bullion coin in 2014.

Point, San Francisco, and Philadelphia), our bullion coin sales team, our procurement team that sources the raw

their excellent performance.
numismatiC Coins and medals
Our numismatic program had a good year in FY 2013 with sales of $512 million, up 6 percent from last year. Net
income of numismatic coins and medals was up 30 percent, further demonstrating our focus on cost reductions and
productivity. Customers responded very well to our new product introductions in FY 2013, including our American
Eagle West Point Two-Coin Silver Set and the American Buffalo One Ounce Gold Reverse Proof Coin celebrating
the 100th anniversary of the iconic Buffalo Nickel design by James Earle Frasier. New products on tap for FY 2014
include our Theodore Roosevelt special set and some new offerings recognizing the 50th anniversary of the
Kennedy half-dollar coin, in addition to the Civil Rights Act of 1964 and National Baseball Hall of Fame
Commemorative Coin Programs.
Customer FoCus
With over $300 million in numismatic internet sales                 NET INCOME OF NUMISMATIC
annually, the United States Mint is one of the top 100              COINS AND MEDALS WAS UP
internet retailers by volume in the United States. But our
                                                                       30 PERCENT, FURTHER
made good progress in 2013 to upgrade this system and we
                                                                    DEMONSTRATING OUR FOCUS
look forward to better serving our customers with a state-of-          ON COST REDUCTIONS
the-art online retailing platform to be launched in late 2014.          AND PRODUCTIVITY.
Our team rededicated itself to customer care, and we drove
solid improvements in customer satisfaction in FY 2013 with our favorability scores improving to 92.6 percent from
90.0 percent in the prior year, as measured by an independent third-party survey.
To reach new generations of customers and attract new collectors, we established a social media presence in 2009.
Albeit from a small base, we are pleased with our FY 2013 social media growth with Facebook fans growing
34 percent and Twitter followers over 70 percent.
researCh and develoPment
Our research and development (R&D) is focused on lowering the cost to produce circulating coins. In FY 2013,
we began a series of comprehensive technical tests to evaluate several alternative metallic compositions that showed
promise during our earlier R&D efforts. Additionally, we continue to evaluate possible manufacturing process
changes to further reduce our own manufacturing costs. Together, these efforts will be detailed in our next R&D
report to Congress in 2014.




                                                             2
sustainaBility
At its core, the United States Mint is a manufacturing
                                                                   WITH OVER $300 MILLION
operation with over 1,700 employees and six different
sites. We are conscious of our effect on the environment      IN NUMISMATIC INTERNET SALES
and work hard to incorporate best practices from around        ANNUALLY, THE UNITED STATES
the world to reduce our environmental footprint and make            MINT IS ONE OF THE TOP
our operations more sustainable. Since 2009, we have                100 INTERNET RETAILERS
reduced net emissions by 33,363 metric tons of carbon
                                                           BY VOLUME IN THE UNITED STATES.
dioxide equivalent (MT CO2e). This is equivalent to
annual greenhouse gas emissions of 7,008 passenger
vehicles, the CO2 emissions from the annual energy use
of 1,680 homes, or the carbon captured and stored by 27,570 acres of U.S. forests in one year. It should be noted that
we have achieved these outstanding environmental results, all while doubling our production output.
innovation and teChnology
The United States Mint’s investment in technology over the last ten years paid off handsomely again in FY 2013.
Consider the Code Talkers Recognition Congressional Medal program. At present, this single program requires
66 new medal designs and in 2013, we completed production of more than 50 of these designs — approximately
the same number of designs that we produce in one year for all our other coin and medal programs combined.
We simply could not have completed the design and engraving work needed for this important program with the
vintage equipment that was still in use at the United States Mint just 10 years ago. The computer numerical control
machines, laser frosting equipment, physical vapor deposition chambers, and clean rooms enable our decreasing
employee base to deliver more coins and medals with lower costs.
Additionally, the laser frosting enhancements achieved in FY 2013 have created a new degree of artistic freedom
for our artists and designers. Through a process developed in house, we can create different textures on different
areas of the design to create a stunning visual effect. We incorporated this technique in two of our products this year:
the American Eagle West Point Two-Coin Silver Set and the 5-Star Generals Commemorative Coin Program.
This technique adds additional luster to these already beautiful coins.
your united states mint

see the dedication and professionalism of 1,700 men and women as they mint and issue our coins on behalf of the
American people. We had a great FY 2013 and are ready for the challenges and opportunities ahead. We offer public
tours at our Denver and Philadelphia facilities, and I encourage you to visit them. We have a great website that
highlights our history, which really is the history of our Nation. We have a broad array of numismatic products that

you will visit us in person or online at www.USMINT.gov.


Sincerely,




Richard A. Peterson, Deputy Director




                                                           3
Front row, left to right: Ellen McCullom, West Point Plant Manager; Daniel P. Shaver, Chief Counsel;
Beverly Ortega Babers, Chief Administrative Officer; Annie Brown, Associate Director, Workforce Solutions;
Tom Jurkowsky, Director Public Affairs; DeAnna Wynn, Acting Chief Information Officer. Second row, left to
right: J. Marc Landry, Acting Associate Director, Sales and Marketing and Philadelphia Plant Manager; David
Motl, Chief Financial Officer; Dennis O’Connor, Chief of Protection; Richard Peterson, Deputy Director;
Eric Anderson, Executive Secretary; David Croft, Acting Associate Director, Manufacturing and Denver
Plant Manager; Jon Cameron, Director, Office of Coin Studies. Not pictured: Larry Eckerman, San Francisco
Plant Manager; B.B. Craig, Executive Lead, Long Range Planning; April Stafford, Manager, Stakeholder
Relations; William Norton, Director, Legislative and Intergovernmental Affairs



       ORGANIZATIONAL PROFILE
       our mission: Serve the American people by manufacturing and distributing circulating, precious metal and
       collectible coins, and national medals, and providing security over assets entrusted to us.
       our vision
       and workplace.
       Established in 1792, the United States Mint (Mint) is the world’s largest coin manufacturer. Since Fiscal Year (FY)
       1996, the Mint has operated under the Public Enterprise Fund (PEF) (31 U.S.C. § 5136). The PEF enables the Mint
       to operate without an appropriation. We generate revenue through the sale of circulating coins to the Federal Reserve
       Banks (FRB), numismatic products to the public, and bullion coins to authorized purchasers. Revenue in excess of
       amounts required by the PEF is transferred to the United States Treasury General Fund.
       The Mint operates six facilities and employs approximately 1,700 employees across the United States. Each facility
       performs unique functions critical to our overall operations. Manufacturing facilities in Philadelphia and Denver
       produce coins of all denominations for circulation. Both facilities also produce dies for striking coins. All sculpting
       and engraving of coin and medal designs is performed in Philadelphia. Production of numismatic products, including
       bullion coins, is primarily performed at facilities in San Francisco and West Point. All four production facilities
       produce commemorative coins as authorized by federal laws. The United States Bullion Depository at Fort Knox
       stores and safeguards United States gold bullion reserves. Administrative and oversight functions are performed
       at our Headquarters in Washington, D.C.

                                                                  4
TABLE OF CONTENTS


     The United States Mint at a Glance                              6


     Management’s Discussion and Analysis                            8


     Analysis of Systems, Controls, and Legal Compliance            23


     Limitations of the Financial Statements                        24




     Independent Auditors’ Report                                   27


     Financial Statements                                           29


     Notes to Financial Statements                                  33


     Required Supplementary Information                             49


     Other Information                                              49


     Independent Auditors’ Report on Internal Controls              50


     Independent Auditors’ Report on Compliance and Other Matters   52


     Appendix I: FY 2013 Coin and Medal Products                    53




                                               5
THE UNITED STATES MINT AT A GLANCE
united states mint
The men and women of the Mint manufacture
and distribute circulating coins, precious metal
and collectible coins, and national medals to
meet the needs of the United States. Our vision

excellence in our people, products, customer
service, and workplace.




CirCulating Coinage
The Mint is the sole manufacturer of legal tender
coinage for the United States. The Mint’s highest

issue circulating coinage.




Bullion Coins
The Mint is the world’s largest producer of gold
and silver bullion coins. The bullion coin product
line provides consumers a simple and tangible
means to acquire precious metal coins. Investors
purchase bullion coins at a small mark up over
spot prices for the intrinsic metal value and the
United States Government’s guarantee of each
coin’s metal weight, content, and purity.


numismatiC ProduCts
The Mint prepares and distributes numismatic
products for collectors and those who desire
high-quality versions of circulating coinage.
Most of our recurring products are required by
federal statute. Others are required by individual
public laws.




seigniorage and net inCome
Seigniorage is the difference between the face
value and cost of producing circulating coinage.
The Mint transfers seigniorage to the Treasury
General Fund to help reduce national debt. Net
income from numismatic product lines can also
fund federal programs.



                                                     6
2013 PerFormanCe
Revenue and net income increased in FY 2013. Total revenue was $4,335.0
million, increasing by 26.2 percent ($899.6 million) from last year. Cost of goods
sold (COGS) increased 26.6 percent to $3,899.2 million mainly due to increased
metal expenses to meet the volume growth in bullion coin sales. Selling, general,
and administrative (SG&A) expenses declined 3.0 percent from last year, mainly
due to continued ongoing cost reduction efforts. Total seigniorage and net income,
before protection expenses, increased 40.5 percent to $292.5 million compared
to last year.




CirCulating Coinage
Circulating coin shipments increased 17.8 percent to 10,696 million coins in
FY 2013. Quarter-dollar coin shipments experienced the strongest annual percentage
growth at 118.5 percent compared to last year. Circulating revenue increased 17.2
percent to $578.0 million. Seigniorage increased 29.7 percent to $137.4 million.
Seigniorage per dollar issued increased to $0.24 from $0.21 last year.




Bullion Coins
Demand for bullion coins grew in FY 2013 to an all-time high. The Mint sold 45.9
million ounces of gold and silver bullion coins, an increase of 11.1 million ounces
from last year. Total bullion coin revenue increased 31.8 percent to nearly $3.3
billion coins in FY 2013, as gold bullion coin revenue increased $611.9 million and
silver bullion coin revenue increased $171.8 million compared to last year. Bullion
coin net income increased 108.8 percent to $59.3 million. Bullion coin net margin
increased to 1.8 percent compared to 1.2 percent last year.




numismatiC ProduCts
Although numismatic units sold were slightly less (0.9 percent) than the prior year
at 5.5 million in FY 2013, numismatic revenues increased 6.5 percent to $512.4
million mainly because of an increase of $52.7 million in gold and platinum product
revenue. Numismatic net income increased 29.6 percent to $95.8 million (before
protection expenses). Numismatic net margin increased to 18.7 percent compared to
15.4 percent last year.




transFer to the general Fund
In FY 2013, the Mint transferred $392 million to the Treasury General Fund. The


Treasury General Fund, which represented numismatic program results for FY 2012.




                   7
management’s disCussion and analysis
MEET THE NATION’S NEED FOR CIRCULATING COINS

coinage is the Mint’s highest priority.
We mint and issue circulating coins to the Federal Reserve Banks (FRB) in quantities to support their service

retailers and the public. The Mint recognizes revenue from the sale of circulating coins at face value when they are
shipped to the FRB.
CirCulating results
The total number of circulating coins shipped to the FRB increased 17.6 percent to 10.7 billion coins in FY 2013
from 9.1 billion coins in FY 2012. Quarter-dollar coin shipments experienced the greatest annual growth, increasing
118.5 percent from FY 2012. One-cent (penny)shipments were 61.8 percent of total shipments, down from 64.2
percent of total shipments in FY 2012.
                                                           Total Circulating Coin Production (coins in millions)
The total dollar value of shipments increased 17.2
                                                          30,000
percent to $578 million in FY 2013 from $493.3
million in FY 2012. Seigniorage increased 29.7            25,000
percent to $137.4 million mainly from increased
                                                          20,000
quarter-dollar and dime shipments, along with a
7.6 percent reduction in SG&A expenses compared           15,000
to last year.
                                                          10,000
Circulating COGS increased 17.8 percent to $383.7
million from $325.8 million in FY 2012, mainly due        5,000

to the increased volumes. The Mint saved about $1.9
                                                              0
                                                                    1973       1983      1993       2003       2013
million in FY 2013 compared to last year mainly
because metal prices were lower. Even with the
increase in circulating coinage shipments, the Mint was able to cut plant overhead costs by three percent at the
Denver and Philadelphia Mints (excluding a one-time establishment of an allowance for supplies of $6.7 million).
SG&A expenses decreased by 7.6 percent to $56.9 million from $61.6 million last year. This was primarily due to
a 17 percent reduction in information technology expenses.


Presidential $1 Coin was minted and issued to the FRB before circulating shipments of $1 coins were suspended on
December 13, 2011. Without $1 coin shipments in FY 2013, the Mint expected seigniorage to be slightly lower than
last year. However, because there was more demand for quarter-dollar coins than anticipated, FY 2013 total
seigniorage actually exceeded last year’s amount. Quarter-dollar coins were responsible for $265.6 million in
revenue and $154.1 in seigniorage, and dimes contributed $190.1 million in revenue and $103.5 in seigniorage.
As a result, despite the lack of $1 coin contributions, total circulating seigniorage increased 29.7 percent to $137.4
million from $105.9 million last year. Seigniorage per dollar issued performance increased to $0.24 in FY 2013
from $0.21 in FY 2012.




                                                          8
           Photo by Mike Unser




INNOVATIVE TECHNOLOGY
(Left) Sculptor and engravers have the choice of making physical models (galvanos) of their
coin designs, the traditional method, or to use sophisticated computer programs to make
3-D computer models, as Eric Custer demonstrates. Whether produced from scratch as a
physical model or produced on the computer, the coin design ultimately ends up as a 3-D
computer image.
(Center) William Tan operates the Press Die Vision System (PDVS), which is integrated
with the coin press so that no striking can occur until the system inspects and approves the
installed dies. This integration was created by a group in San Francisco. The system uses
technology such as computer controlled servo motors, infrared lights, special mirrors, and
a camera to inspect the installed dies in the press. If the dies are not an appropriate pair,
striking is interlocked and prevents the striking of mule coins (obverses and reverses not
meant to be together) for all denominations, increasing efficiency and lowering
production costs.
(Right) Optical digital scanning equipment operated by Eric Custer in Philadelphia uses
state-of-the-art blue light technology for unparalleled fidelity of detail and repeatability
in legacy plasters, coins, dies, and bronze galvanos.




                                                              Five-cent
                                                              One-cent




                                                9
CIRCULATING (coins and dollars in millions except seigniorage per $1 issued)
                                                                                                                                                   % Change
                                             2013                 2012                 2011                    2010                  2009          2012 to 2013

Coin Shipments                               10,696             9,082                 7,396                   5,399                 5,207             17.8%

Value of Shipments                       $       578.0      $     493.3           $      776.9            $    618.2            $    777.6            17.2%
Gross Cost                               $       440.6      $     387.4           $      428.1            $    317.4            $    349.8            13.7%
 Cost of Goods Sold                      $       383.7      $     325.8           $      364.7            $    239.2            $    251.7            17.8%
 Selling, General & Administrative       $        56.9      $      61.6           $       63.4            $     78.2            $     98.1            (7.6%)
Seigniorage                              $       137.4      $     105.9           $      348.8            $    300.8            $    427.8            29.7%
Seigniorage per $1 Issued                $        0.24      $      0.21           $       0.45            $     0.49            $     0.55




SHIPMENTS, COSTS, AND SEIGNIORAGE BY DENOMINATION
(coins and dollars in millions except seigniorage per $1 issued)
2013                                 One-Cent         Five-Cent           Dime                Quarter-Dollar Dollar                     Mutilated              Total
                                                                                                                                         & Other
Coins Shipments                          6,610            1,123               1,901               1,062               $    –                              10,696

Value of Shipments                   $      66.1      $      56.2         $    190.1          $    265.6              $    –            $     –          $     578.0
Gross Cost                           $    121.1       $    105.7          $     86.6          $    111.5              $    –            $     15.7       $     440.6
 Cost of Goods Sold                  $    104.7       $      91.0         $     75.1          $     97.2              $    –            $     15.7       $     383.7
 Selling, General & Administrative   $      16.4      $      14.7         $     11.5          $     14.3              $    –            $     –          $      56.9
Seigniorage                          $     (55.0)     $     (49.5)        $    103.5          $    154.1              $    –            $    (15.7)      $     137.4
Seigniorage per $1 Issued            $     (0.83)     $     (0.88)        $     0.54          $     0.58              $    –                             $      0.24


2012                                 One-Cent         Five-Cent           Dime                Quarter-Dollar Dollar                     Mutilated              Total
                                                                                                                                         & Other
Coins Shipments                          5,835            1,006               1,658                 486                    97                  –             9,082

Value of Shipments                   $      58.4      $      50.3         $     165.8         $     121.7             $    97.1         $       –        $    493.3
Gross Cost                           $    116.4       $     101.5         $       82.7        $      54.9             $    20.5         $     11.4       $    387.4
 Cost of Goods Sold                  $      96.5      $       84.1        $       69.5        $      46.6             $    17.7         $     11.4       $    325.8
 Selling, General & Administrative   $      19.9      $       17.4        $       13.2        $       8.3             $     2.8         $       –        $     61.6
Seigniorage                          $     (58.0)     $      (51.2)       $       83.1        $      66.8             $    76.6         $    (11.4)      $    105.9
Seigniorage per $1 Issued            $     (0.99)     $      (1.02)       $      0.50         $      0.55             $    0.79         $       –        $     0.21



2011                                 One-Cent         Five-Cent           Dime                Quarter-Dollar Dollar                     Mutilated              Total
                                                                                                                                         & Other
Coins Shipments                          4,289             914                1,403                323                    467                  –             7,396

Value of Shipments                   $     42.9       $      45.7         $    140.3          $     81.0              $   467.0         $       –        $    776.9
Gross Cost                           $    103.1       $    102.2          $     79.3          $     36.0              $    84.2         $     23.3       $    428.1
 Cost of Goods Sold                  $     85.4       $      86.1         $     67.1          $     30.3              $    72.5         $     23.3       $    364.7
 Selling, General & Administrative   $     17.7       $      16.1         $     12.2          $      5.7              $    11.7         $       –        $     63.4
Seigniorage                          $     (60.2)     $     (56.5)        $     61.0          $     45.0              $   382.8         $    (23.3)      $    348.8
Seigniorage per $1 Issued            $     (1.40)     $     (1.24)        $     0.43          $     0.56              $    0.82         $       –        $     0.45




                                                                                 10
Deputy Director Richard Peterson with Rhonda Sapp,
President of the American Federation of Government
Employees, Mint Council




UNIT COST OF PRODUCING AND DISTRIBUTING COINS BY DENOMINATION
2013                                     One-Cent     Five-Cent     Dime            Quarter-Dollar      $1 Coin


Cost of Goods Sold                       $ 0.0156     $ 0.0805      $ 0.0391        $ 0.0903               –
Selling, General & Administrative        $ 0.0025     $ 0.0131      $ 0.0061        $ 0.0135               –
Distribution to FRB                      $ 0.0002     $ 0.0005      $ 0.0004        $ 0.0012               –
Total Unit Cost                          $ 0.0183     $ 0.0941      $ 0.0456        $ 0.1050               –

2012                                     One-Cent     Five-Cent     Dime            Quarter-Dollar      $1 Coin


Cost of Goods Sold                       $ 0.0163     $ 0.0829      $ 0.0415        $ 0.0943            $ 0.1802
Selling, General & Administrative        $ 0.0034     $ 0.0173      $ 0.0080        $ 0.0171            $ 0.0288
Distribution to FRB                      $ 0.0003     $ 0.0007      $ 0.0004        $ 0.0016            $ 0.0021
Total Unit Cost                          $ 0.0200     $ 0.1009      $ 0.0499        $ 0.1130            $ 0.2111

2011                                     One-Cent     Five-Cent     Dime            Quarter-Dollar      $1 Coin


Cost of Goods Sold                       $ 0.0197     $ 0.0938      $ 0.0474        $ 0.0923            $ 0.1531
Selling, General & Administrative        $ 0.0041     $ 0.0176      $ 0.0087        $ 0.0176            $ 0.0251
Distribution to FRB                      $ 0.0003     $ 0.0004      $ 0.0004        $ 0.0015            $ 0.0021
Total Unit Cost                          $ 0.0241     $ 0.1118      $ 0.0565        $ 0.1114            $ 0.1803



                                                                                                               Sep-09   Sep-10   Sep-11   Sep-12   Sep-13


demand for pennies and nickels, lower unit costs generated a smaller FY 2013 loss ($104.5 million) for these
denominations compared to FY 2012 ($109.2 million).
Average daily market prices for copper and nickel decreased 4.2 percent and 11.7 percent, respectively, from
FY 2012 to FY 2013, while the average daily market price for zinc decreased slightly by 0.7 percent over the
same time period.


                                                         Sep-09   Sep-10   Sep-11     Sep-12   Sep-13          Sep-09   Sep-10   Sep-11   Sep-12   Sep-13




       Sep-09   Sep-10   Sep-11     Sep-12   Sep-13      Sep-09   Sep-10   Sep-11     Sep-12   Sep-13          Sep-09   Sep-10   Sep-11   Sep-12   Sep-13




                                                                   11
TECHNOLOGY THEN AND NOW
Introduced in 1907 and used throughout the 20th
century, the Janvier Reduction Lathe (top) duplicated
and reduced plasters created by the artists, generating
master dies. Introduced in 2010, a CNC (computer
numeric control) milling machine (bottom) takes digital
information from the artist and automatically cuts hubs,
dies, and templates. It takes 15 to 20 hours to cut a
coinage hub and 25 to 30 hours to cut a three-inch die,
about half the time it took with the Janvier Reduction
Lathe, all while producing a higher quality product.




seQuestration and CirCulating oPerations
The Mint’s circulating coinage programs and operations were subject to the sequestration order issued March 1,
2013. As such, the Mint was required to reduce budgetary obligations for circulating operations by $24 million
between March and September. The Mint successfully met its sequestration target.
alternative metal researCh and develoPment
In December 2012, the Mint submitted the 2012 Biennial Report to the Congress on the Current Status of Coin
Production Costs and Analysis of Alternative Content to meet the requirements of the Coin Modernization,
Oversight, and Continuity Act of 2010 (Public Law 111-302). The law provides the Secretary of the Treasury research
and development (R&D) authority for alternative metallic materials for circulating coins and requires a report every
two years.


to validate supply chains, ease of manufacture, and costs of production. We will also analyze the estimated costs to
stakeholders associated with potential alternative metals.
CirCulating ProduCtion
In anticipation of rising circulating demand in the third quarter, the Mint took advantage of lower demand during

of production was effective, as the third quarter demand was high, as expected. This strategy reduced the need for
overtime at the facilities in Philadelphia and Denver, allowed for better equipment maintenance practices, and eased


The Mint remains focused on reducing the costs of all our programs. As an example, in the past, the Mint would
scrap unsold numismatic products, so unsold products struck in prior years are typically written down to record the
expense of their production. In May 2013, the Mint converted about 6.4 million unsold circulating-quality quarter-
dollars in bags and rolls for numismatic sales into 32 bulk bags that shipped to the FRB in July. By doing this, the
Mint avoided about $150,000 in costs to melt these coins and to manufacture an equal number of new circulating
quarters to meet FRB demand.



                                                         12
MEET THE PUBLIC’S DEMAND FOR U.S. BULLION COINS

Our bullion coin program provides the public a simple and tangible means to acquire precious metal coins at a slight
premium to spot market metal prices. Investors purchase bullion coins not only for their intrinsic metal value, but also
because the United States guarantees each coin’s metal weight, content, and purity.
We mint and issue gold and silver bullion coins to authorized purchasers through the American Eagle, American
Buffalo, and America the Beautiful Silver Bullion Coin™ Programs. The Mint sells the coins to the authorized
purchasers at the same market price paid for the metal plus a premium to cover bullion program operating costs.
Authorized purchasers agree to maintain an open, two-way market for these coins, assuring their liquidity. This
allows the public to purchase and sell bullion coins at the prevailing market price, adjusting for any premium the
authorized purchaser applies.
Bullion Coin results
An increase in American Eagle Gold Bullion Coin demand boosted the Mint’s bullion revenue and net income.
Total bullion program revenue totaled $3,244.6 million, up 31.8 percent from $2,460.9 million last year. Bullion coin
net income increased to $59.3 million in FY 2013, up 108.8 percent from $28.4 million in FY 2012. The bullion net



FY 2013 from $2,407.6 million last year.
The Mint sold 51.9 percent more ounces of American Eagle Gold Bullion Coins in FY 2013, yielding increases of
$480.6 million in revenues and $13.3 million in net income compared to last year. American Buffalo Gold Bullion
Coin ounces sold increased 66.7 percent, increasing revenue by $131.3 million and net income by $3.7 million.



BULLION COINS (dollars in millions)
                                                                                                           % Change
                                         2013        2012           2011          2010          2009       2012 to 2013

Gold oz. sold (thousands)              1,218          788         1,235         1,839         1,418           54.6%
Silver oz. sold (thousands)           44,644       34,152        44,048        33,983        26,148           30.7%
Platinum oz. sold (thousands)              –            –             –             –            25              –

Sales Revenue                         $ 3,244.6   $ 2,460.9      $ 3,471.4     $ 2,855.4     $ 1,694.8        31.8%
Gross Cost                            $ 3,185.3   $ 2,432.5      $ 3,405.6     $ 2,800.2     $ 1,662.1        30.9%
 Cost of Goods Sold                   $ 3,159.0   $ 2,407.6      $ 3,378.8     $ 2,778.4     $ 1,650.0        31.2%
 Selling, General & Administrative    $    26.3   $     24.9     $     26.8    $     21.8    $     12.1        5.6%
Net Income                            $    59.3   $     28.4     $     65.8    $     55.2    $     32.7      108.8%
Bullion Net Margin                        1.8%         1.2%           1.9%          1.9%          1.9%




                                                            13
BULLION COINS REVENUE, COST, AND NET INCOME BY PROGRAM
(dollars in millions)
2013                                 American     American        Sub-Total       American     America the      Sub-Total                 Total
                                     Eagle Gold   Buffalo Gold    Gold            Eagle Silver Beautiful Silver Silver
Ounces Sold (thousands)                   983          235            1,218          43,559             1,085               44,644        45,862

Sales Revenue                        $ 1,586.0    $   371.9       $ 1,957.9       $ 1,256.0         $     30.7           $ 1,286.7      $ 3,244.6
Gross Cost                           $ 1,544.7    $   362.9       $ 1,907.6       $ 1,248.2         $     29.5           $ 1,277.7      $ 3,185.3
 Cost of Goods Sold                  $ 1,541.6    $   362.4       $ 1,904.0       $ 1,225.8         $     29.2           $ 1,255.0      $ 3,159.0
 Selling, General & Administrative   $      3.1   $     0.5       $     3.6       $    22.4         $      0.3           $    22.7      $    26.3
Net Income                           $     41.3   $     9.0       $    50.3       $     7.8         $      1.2           $     9.0      $    59.3
Bullion Net Margin                        2.6%         2.4%            2.6%            0.6%               3.9%                0.7%           1.8%


2012                                 American     American        Sub-Total       American     America the      Sub-Total                 Total
                                     Eagle Gold   Buffalo Gold    Gold            Eagle Silver Beautiful Silver Silver
Ounces Sold (thousands)                   647          141             788           33,707                445              34,152        34,940

Sales Revenue                        $ 1,105.4    $   240.6       $ 1,346.0       $ 1,100.6         $     14.3           $ 1,114.9      $ 2,460.9
Gross Cost                           $ 1,077.4    $   235.3       $ 1,312.7       $ 1,105.0         $     14.8           $ 1,119.8      $ 2,432.5
 Cost of Goods Sold                  $ 1,075.1    $   234.9       $ 1,310.0       $ 1,083.0         $     14.6           $ 1,097.6      $ 2,407.6
 Selling, General & Administrative   $     2.3    $     0.4       $     2.7       $    22.0         $      0.2           $     22.2     $    24.9
Net Income                           $    28.0    $     5.3       $    33.3       $    (4.4)        $     (0.5)          $      (4.9)   $    28.4
Bullion Net Margin                        2.5%         2.2%            2.5%           (0.4%)              3.5%                (0.4%)         1.2%


2011                                 American     American        Sub-Total       American     America the      Sub-Total                 Total
                                     Eagle Gold   Buffalo Gold    Gold            Eagle Silver Beautiful Silver Silver
Ounces Sold (thousands)                 1,106         129             1,235          41,309             2,739              44,048         45,283

Sales Revenue                        $ 1,689.5    $ 207.9         $ 1,897.4       $ 1,464.0         $ 110.0              $ 1,574.0      $ 3,471.4
Gross Cost                           $ 1,645.3    $ 202.9         $ 1,848.2       $ 1,450.4         $ 107.0              $ 1,557.4      $ 3,405.6
 Cost of Goods Sold                  $ 1,642.3    $ 202.6         $ 1,844.9       $ 1,428.0         $ 105.9              $ 1,533.9      $ 3,378.8
 Selling, General & Administrative   $     3.0    $   0.3         $     3.3       $    22.4         $   1.1              $    23.5      $    26.8
Net Income                           $    44.2    $   5.0         $    49.2       $    13.6         $   3.0              $    16.6      $    65.8
Bullion Net Margin                        2.6%       2.4%              2.6%            0.9%            2.7%                   1.1%           1.9%


gold Bullion Coin results
Total gold bullion coin ounces sold increased by 430 thousand ounces (54.6 percent) compared to FY 2012. The aver-
age daily spot price of gold during the year was $1,521.61 per ounce, down 8.4 percent from $1,660.49 per ounce last
year. The gold spot price posted its biggest one-day percentage drop in 30 years on April 15, 2013 (falling 9.2 percent




                                                                       Sep-11 Dec-11 Mar-12 Jun-12 Sep-12 Dec-12 Mar-13 Jun-13 Sep-13




                                                                 14
RECORD-BREAKING YEAR FOR SILVER BULLION
Newly minted American Eagle Silver Bullion Coins (top) rest
in a tray at the West Point facility. The Mint is the world’s
largest producer of bullion coins and the West Point facility
manufactures the entire family of American Eagle proof and
uncirculated coins in gold, silver, and platinum. In FY 2013,
the Mint sold 44.7 million ounces of silver bullion, which
broke the previous record set in FY 2011 for silver bullion
coin ounces sold.
Ellen McCullom (bottom), Plant Manager of the West Point
facility, holds a newly minted 2013-W $50 Reverse Proof
American Buffalo Gold Coin.
West Point began producing gold and silver bullion coins
in 1986 and platinum bullion coins in 1997. The American
Buffalo .9999 fine gold coins were added in 2006.

                                                                                        Photos by Mike Unser




days following the historic price drop, bullion purchasers ordered 107,500 ounces of gold coins compared to 60,000
ounces in the two weeks preceding the price change. This unforeseen jump in demand was unprecedented and on
April 22, the Mint sold out of American Eagle One-Tenth Ounce Gold Bullion Coins and did not resume sales of these
coins until May 28. However, the Mint was able to fully meet the increased demand for all other gold bullion coin



silver Bullion Coin results
The Mint sold 44.7 million ounces of silver bullion coins in FY 2013, passing the previous record of 44 million
ounces sold in FY 2011. Sales of American Eagle Silver Bullion coin ounces increased by 29.2 percent, increasing
revenue by $155.4 million and net income by $12.2 million compared to last year. America the Beautiful Five-Ounce
Silver Bullion Coins generated increases of $16.4 million in revenue and $1.7 million in net income on 143.8 percent
more ounces sold compared to last year.
                                                                     Sep-11 Dec-11 Mar-12 Jun-12 Sep-12 Dec-12 Mar-13 Jun-13 Sep-13




                                                                    Sep-11 Dec-11 Mar-12 Jun-12   Sep-12   Dec-12   Mar-13   Jun-13   Sep-13




                                                        15
                      Traditional Process                                     Enhanced Process


ENHANCED POLISHING AND LASER FROSTING
The Mint Research and Development team has pioneered unique proof polishing and laser
frosting techniques for a dramatic enhancement of artistic quality in coin and medal design.
The techniques allow sculptors and engravers exceptional freedom of expression. One of
the best examples is the 2013 5-Star Generals Commemorative Silver Proof Coin (traditional
process pictured on the left, enhanced process on the right). The process begins with selec-
tive horsehair and proof polishing to achieve varying degrees of reflectivity and brightness.
Aspects of the artwork, text, and field are then selectively masked or left exposed to control
levels of polish. Degrees of laser intensity are applied to accentuate specific parts of the
design and then laser-generated textures are strategically applied for the final artistic touch.




Because of this ongoing high demand for silver bullion, the sales of American Eagle Silver Bullion Coins went under

silver was $26.79 per ounce, down 13.4 percent from $30.94 last year. The silver market price dropped 14.1 percent
on April 15, from $27.40 to $23.54. The strong demand for silver continued before and after the drop in silver price.


                                                          16
RESPONSIBLY EXPAND THE NUMISMATIC PROGRAM

The Mint’s numismatic program provides high-quality versions of circulating coinage, precious metal coins,
commemorative coins, and medals for sale to the public. Most of our recurring products—such as United States
Mint Uncirculated Coin Sets®, United States Mint Proof Sets®, and United States Mint Silver Proof Sets®—are
required by federal statute. Others, such as commemorative coins and Congressional Gold Medals, are required by
individual public laws. A main objective of the numismatic program is to increase our customer base and foster sales
while controlling costs and keeping prices as low as practicable.
numismatiC results
Numismatic product sales were relatively stable at 5.5
million units in FY 2013 compared to 5.6 million units
in FY 2012 (a slight decrease of 0.9 percent). Numismatic
revenue increased 6.5 percent to $512.4 million in FY 2013
from $481.2 million last year, mainly driven by a $52.7
million (32.6 percent) increase in Gold and Platinum Coin
products revenue.
The 2013 American Buffalo Gold One Ounce Reverse
Proof, 2013 American Eagle Silver One Ounce Proof Coin,
and the 2013 American Eagle Silver Two-Coin West Point
Set generated the most numismatic revenue in FY 2013.
The 2013 American Eagle Silver One Ounce Proof Coin and 2013 United States Mint Proof Set were the most
popular sellers (in terms of units) this year.
Numismatic program net income and seigniorage increased 29.6 percent to $95.8 million in FY 2013 from $73.9
million in FY 2012. Numismatic COGS increased 3.0 percent to $356.5 million from $346.1 million primarily from
the increased volume of gold and platinum product sales. SG&A expenses decreased 1.8 percent compared to last
year, because of a 23.5 percent decrease in selling expenses. Numismatic net margin increased to 18.7 percent in FY
2013 from 15.4 percent in FY 2012 as revenue from higher-margin gold and silver coin product sales comprised a
greater share of the total numismatic revenue.
Gold and platinum unit sales increased by 35.2 percent over last year, driven by the introduction of the new Ameri-
can Buffalo Reverse Proof gold coin. The Presidential $1 Coin and First Spouse Medal unit sales increased by 13
percent over last year, primarily from the introduction of new $1 coin numismatic products offered following the


NUMISMATIC (dollars in millions)
                                                                                                           % Change
                                          2013         2012              2011         2010        2009     2012 to 2013

Units Sold (Thousands)                   5,509        5,559             7,311        6,466       7,642       (0.9%)

Sales Revenue                        $    512.4   $    481.2        $    721.7   $  413.1    $    440.0        6.5%
Gross Cost                           $    416.6   $    407.3        $    608.5   $  363.3    $    398.9        2.3%
 Cost of Goods Sold                  $    356.5   $    346.1        $    543.8   $  298.6    $    329.7        3.0%
 Selling, General & Administrative   $     60.1   $     61.2        $     64.7   $   64.7    $      69.2      (1.8%)
Net Income & Seigniorage             $     95.8   $     73.9        $    113.2   $   49.8    $      41.1     29.6%
Numismatic Net Margin                     18.7%        15.4%             15.7%     12.1%           9.3%
Seigniorage Portion                  $     29.3   $     22.9        $      9.8   $   12.0    $      19.3     27.9%




                                                               17
             Photo by Mike Unser




2013 CODE TALKERS CONGRESSIONAL GOLD MEDAL PROGRAM
The Mint is proud to have played a significant role in honoring the Native American Code
Talkers this year. An intense three-year outreach effort to American Indian tribes — identified
by the Department of Defense as Code Talkers in World War I or World War II — culminated
in a Code Talker Congressional Gold Medal Ceremony honoring 25 tribes with gold medals.
Eight or more tribes will receive gold medals at a later date. The 25 medals required 50
unique designs and six months of design and production at Philadelphia. Mint Sculptor-
Engraver Michael Gaudioso (left) is pictured working on the obverse of the Oglala Sioux
Tribe of South Dakota’s medal (center). All 25 medals (right) are displayed for viewing by
employees at the United States Mint headquarters in Washington, D.C.




suspension of $1 coin shipments for circulation. The unit sales for the remaining product categories either stayed
level or continued to decrease.
The two precious metal numismatic product categories (gold and platinum, and silver) generated the vast majority of
revenue (67.1 percent), compared to the other numismatic product categories. Similarly, these categories generated
$70.9 million of the numismatic net income compared to $24.9 million net income generated by the other categories.
The annual recurring sets product category generated a loss of $3.4 million in FY 2013. This loss is mainly attributed
to reduced margins, as the price of silver proof sets was lowered in July in response to lower silver content value in


neW ProduCt highlights
This year, the 2013 United States Mint Congratulations Set and the 2013 United States Mint Happy Birthday
Set joined the United States Mint Birth Set, to commemorate important life events. The United States Mint
Congratulations Set contained one of the bureau’s most popular coins, a 2013 American Eagle One Ounce Silver

both of these products included a space for a personal message. Revenue from the United States Mint Congratulations
Set was almost $275,000 and revenue from the United States Mint Happy Birthday Set was nearly $155,000.
The 2013 American Buffalo One Ounce Gold Reverse Proof Coin went on sale in August and generated $49.9

24-karat gold proof coin ever struck by the Mint. The 2013 version, celebrating 100 years, reverses the mirror-like


Several limited-edition products were offered this year. The Mint sold a 2013 American Eagle West Point Two-Coin
Silver Set, which contributed $32 million in revenue to commemorate the 75th anniversary of the building that houses
the United States Mint at West Point. The 2013 American Eagle West Point Two-Coin Silver Set contained one


                                                          18
was well received by both collectors and industry professionals.

NUMISMATIC REVENUE, COST, AND NET INCOME OR SEIGNIORAGE BY PROGRAM
(dollars in millions)

2013                     Gold and Platinum Silver Coin Annual           Quarter         Presidential and    Commemorative Miscellaneous         Total
                         Coin Products     Products    Sets*            Products        First Spouse Medals

Units Sold (Thousands)       142           1,521         1,587                  716         1,007             327              209          5,509

Sales Revenue            $ 214.2          $ 129.5       $     62.8      $        17.8   $     44.9        $     23.0       $     20.2      $ 512.4
Gross Cost               $ 184.6          $ 88.2        $     66.2      $        15.1   $     22.3        $     22.3       $     17.9      $ 416.6
 Cost of Goods Sold      $ 181.9          $ 75.6        $     47.6      $        10.2   $     15.1        $     19.2       $      6.9      $ 356.5
 Selling, General
 & Administrative        $     2.7        $     12.6    $     18.6      $         4.9   $      7.2        $      3.1       $     11.0      $     60.1
Net Income
& Seigniorage            $    29.6        $     41.3    $      (3.4)    $         2.7   $     22.6        $      0.7       $      2.3      $     95.8
Numismatic
Net Margin                    13.8%             31.9%         (5.4%)            15.2%         50.3%              3.0%           11.4%            18.7%
Seigniorage Portion      $       –        $         –   $        –   $           2.7 $        22.8        $       –        $     3.8       $     29.3


2012                     Gold and Platinum Silver Coin Annual               Quarter     Presidential and    Commemorative Miscellaneous         Total
                         Coin Products     Products    Sets*                Products    First Spouse Medals

Units Sold (Thousands)       105              1,568         1,627               737          891               437             194             5,559

Sales Revenue            $ 161.5          $ 150.5       $     65.7          $    18.9   $     35.4        $     29.0       $     20.2      $ 481.2
Gross Cost               $ 142.1          $ 101.3       $     68.4          $    19.0   $     17.8        $     28.8       $     29.9      $ 407.3
 Cost of Goods Sold      $ 140.2          $ 83.9        $     49.6          $    13.6   $     10.7        $     23.7       $     24.4      $ 346.1
 Selling, General
 & Administrative        $     1.9        $     17.4    $     18.8          $     5.4   $         7.1     $         5.1    $         5.5   $      61.2
Net Income
& Seigniorage            $    19.4        $     49.2    $      (2.7)        $    (0.1) $      17.6        $         0.2    $     (9.7)     $      73.9
Numismatic
Net Margin                    12.0%             32.7%          (4.1%)            (0.5%)       49.7%                 0.7%        (48.0%)          15.4%
Seigniorage Portion      $       –        $         –   $         –   $           2.2 $       17.6        $          –     $      3.1      $     22.9


2011                     Gold and Platinum Silver Coin Annual               Quarter     Presidential and    Commemorative Miscellaneous         Total
                         Coin Products     Products    Sets*                Products    First Spouse Medals

Units Sold (Thousands)       247              1,889         2,657               814         871               645              188             7,311

Sales Revenue            $ 369.9          $ 129.2       $ 107.4             $    22.3   $    21.0         $    43.2        $    28.7       $ 721.7
Gross Cost               $ 315.8          $ 76.0        $ 96.8              $    21.9   $    12.8         $    35.5        $    49.7       $ 608.5
 Cost of Goods Sold      $ 312.6          $ 63.6        $ 72.9              $    17.6   $     8.2         $    30.5        $    38.4       $ 543.8
 Selling, General
 & Administrative        $     3.2        $     12.4    $     23.9          $     4.3   $     4.6         $     5.0        $    11.3       $     64.7
Net Income
& Seigniorage            $    54.1        $      53.2   $     10.6          $     0.4   $     8.2         $     7.7        $ (21.0)        $ 113.2
Numismatic
Net Margin                    14.6%             41.2%          9.9%              1.8%        39.0%             17.8%           (73.2%)           15.7%
Seigniorage Portion      $       –        $        –  $          –          $     2.3 $       5.8         $       –        $     1.7       $      9.8




                                                                       19
Commemorative Coins
Commemorative coin programs are created by acts of Congress to honor a person, place, organization, or event.
The price of each coin or medal ordinarily includes a surcharge authorized to be paid to a designated recipient
organization. By September 30, the 2013 5-Star Generals Commemorative Coin Program had revenue of $15.4
million with surcharges of $1.9 million collected for its recipient organization, the United States Army Command
and General Staff College Foundation. The 2013 Girl Scouts USA Centennial Commemorative Coin Program had
$6.3 million in revenue and $1.2 in surcharges collected. These programs run through December 31, 2013.


Commemorative Coin Program had revenue of $10.3 million, with $2.1 million paid in surcharges to its recipient
organization, the National Infantry Foundation. The National September 11 Memorial & Museum Commemorative
Medal Program generated $10.5 million in revenue, with $1.8 million paid in surcharges to its recipient
organization, the National September 11 Memorial & Museum at the World Trade Center. The 2012 Star-Spangled
Banner Commemorative Coin Program had revenue of $23.6 million, with $3 million to be paid in surcharges to its
recipient organization, the Maryland War of 1812 Bicentennial Commission.
In FY 2013, we also launched a public design competition for the obverse of the National Baseball Hall of Fame
Commemorative Coins, which will be issued in 2014. The design competition was held by the Mint from April 11
through May 11. Members of the National Baseball Hall of Fame participated as judges, and the winner was
announced on September 9. In addition to this competition, we invited children 13 and under to create
a coin design.
Congressional medals
In April, we prepared and struck a Congressional Gold Medal honoring Professor Muhammad Yunus, in recognition

Professor Yunus established a bank in Bangladesh in 1983 to provide loans to the poor on reasonable terms to help
them start their own businesses.
In September, we prepared and struck a Congressional Gold Medal honoring Addie Mae Collins, Denise McNair,
Carole Robertson, and Cynthia Wesley. These young women were killed when a bomb exploded at the Sixteenth
Street Baptist Church in Birmingham, Alabama, on September 15, 1963.
We produced and sold bronze duplicates of both of these medals.
Customer serviCe
The performance of our numismatic program depends heavily on whether we effectively meet our customers’
expectations, so the Mint conducts satisfaction surveys each quarter. Customers evaluate the quality of the Mint’s
service and products. Customers rated the Mint favorably at 92.6 percent in FY 2013, up from 90 percent in FY 2012.
Throughout 2013, the Mint researched the effectiveness of our communication with customers. As a part of this
effort, focus groups in Boston, Cleveland, San Francisco, Charlotte, Philadelphia, Phoenix, Detroit, and Austin

its appeal to existing and new customers. In addition, we studied customer service in the call center and developed


In February 2013, the Annual Government Customer Satisfaction Forum recognized the Mint for its achievements
in providing the best possible customer service in 2012. Based on customer feedback surveys, the Mint received
a customer satisfaction score of 95 – the highest call center score ever achieved in government using American
Customer Satisfaction Index (ACSI) methodology. The benchmark for the federal government under ACSI was
68.4, and for non-government it was 75.9.




                                                         20
TRANSFER TO GENERAL FUND

As required by 31 U.S.C. § 5136, the Mint deposits all receipts from operations and programs into the United States
Mint Public Enterprise Fund. Periodically, the Mint transfers amounts in the PEF determined to be in excess of
amount required to support ongoing operations and programs.
In FY 2013, the Mint transferred a total of $392 million to the Treasury General Fund.
The off-budget transfer comprises seigniorage, which is not treated as a budgetary receipt to the government but as


The on-budget transfer usually comprises
numismatic net income and is typically

year. The Mint made an on-budget
transfer of $42 million to the General
Fund, compared to $77 million
transferred last year. The on-budget
transfer this year included the previous
year’s numismatic net income of $37
million and $5 million from surcharges
collected but not able to be disbursed
for a prior year commemorative
coin program.


FOSTER A SAFE, ENGAGED, AND INNOVATIVE WORKFORCE

It is our goal to have a safe, engaged, and innovative workforce, making the Mint the employer of choice for current
and future employees. Embracing innovative practices by engaging modern technologies and becoming more


saFety First
Total recordable injury and illness case rates fell from 3.5 in FY 2012 to 2.90 in FY 2013. This performance exceeded
our target of 3.14. We were below the average rate of 7.8 for forging and stamping manufacturers, according to the
Occupational Safety and Health Administration.
                                                                   Rate of Injury and Illness Cases per 100 Full-Time Workers
All of our sites have active safety programs that
                                                           12
focus on all aspects of employee safety, especially
                                                           10
material handling and ergonomic risks.
                                                            8
sustainaBility eFForts
                                                               6
The Mint has concentrated on making substantial
changes to our buildings and production operations             4

to lessen our carbon footprint, and our sustainability         2
projects have begun to show positive results.               0
                                                                   1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012 2013


  manufacturing locations and implemented water

  potable water, a 64 percent change from our baseline.

                                                          21
                                              ©UCAR, Photo by Carlye Calvin




LEADING THE WAY ON GREENHOUSE GAS REDUCTIONS
(Left) A green roof graces the Mint in San Francisco. (Center) Wind turbines supply 100
percent of the energy needs of the Mint at Denver. (Right) Pictured are regular users of
vanpools in San Francisco. These and many other sustainability innovations have resulted
in dramatic reductions of greenhouse gas emissions. We have already far surpassed goals
set by the Department of the Treasury for the Mint to meet by the year 2020—a 33 percent
reduction in direct emissions and an 11 percent reduction in indirect emissions. We have
already reduced direct emissions by 47 percent and indirect emissions by 32 percent,
all while increasing production in all three business lines.




  percent and indirect greenhouse gas emissions by 11 percent between 2008 and 2020. The Mint has surpassed
  these goals and has reduced its direct greenhouse gas emissions by 47 percent and its indirect greenhouse gas
  emissions by 32 percent.


  the way our equipment and systems function. Our eventual goal for FY 2015 is a 25 percent reduction in energy
  use (based on a FY 2003 baseline). Between FY 2003 and FY 2012, we reduced energy intensity by 10.2 percent.
  Denver purchases all electricity from renewable resources, which has reduced greenhouse gases attributable to the
  facility by the CO2 equivalent of 25.8 million pounds annually.




  updated its heating, ventilation, and air conditioning system. Full implementation of the new boiler along with
  reduced natural gas prices has generated savings averaging $35,000 a year for the past four years. The new boiler
  has reduced natural gas use and greenhouse gas emissions by roughly 50 percent.


  by-product, by switching to physical vapor deposition (PVD) for the steel dies used to strike proof coins.
  In addition, we demolished and decontaminated the plating operations in San Francisco and Philadelphia,
  and installed the new PVD equipment in San Francisco, Philadelphia, and West Point.
We are committed to improving the sustainability of our operations—not only to save energy and costs, but also to
be better stewards of the assets and facilities we use to perform the Mint’s mission.



                                                          22
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

has made a conscious effort to meet the internal controls requirements of the Federal Managers’ Financial Integrity

(OMB) Circular A-123, and the Reports Consolidation Act of 2000. The organization under my purview is operating
in accordance with the procedures and standards prescribed by the Comptroller General and OMB guidelines.
The systems of management control for the Mint organization under my purview are designed to ensure that:




  4 and FFMIA).




systems are in substantial compliance with the requirements imposed by the FFMIA.


reporting, which includes safeguarding of assets and compliance with laws and regulations. We conducted the

in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control. Based on the results

30, 2013, are operating effectively and no material weaknesses were found in the design or operation of the internal


In addition, the Mint is committed to maintaining effective internal control, as demonstrated by the following actions:



  statements, and c) internal controls and compliance with laws and regulations and other materials related to



  include analysis and evaluation of performance measures.


  Circular A-123 Assessment.




                                                          23
WEST POINT CELEBRATES 75 YEARS OF OPERATION
To celebrate its 75th anniversary, the Mint at West Point, ordinarily
closed to the media, invited press inside the plant for a behind-the-
scenes look at our operations. Seen here, the West Point gold working-
stock storage holds 4,300 gold bars valued at more than $2.3 billion.




  1987 (40 U.S.C. 759 note) and OMB Circular A-130, Management of Federal Information Resources.


 and Recovery Act of 2010 (IPERA).




committed to monitoring and improving its internal controls throughout the entire organization.




LIMITATIONS OF THE FINANCIAL STATEMENTS

Mint, pursuant to the requirements of 31 U.S.C. § 3515(b). The statements have been prepared from the books and
records of the Mint in accordance with generally accepted accounting principles for federal entities and the formats

to monitor and control budgetary resources, which are prepared from the same books and records. The statements
should be read with the realization that they are for a component of the United States Government.




                                                         24
MESSAGE FROM THE CHIEF FINANCIAL OFFICER:




been a bit of a roller coaster ride.
In FY 2009, the Mint saw demand for our circulating coins drop dramatically to levels
not seen since 1963, the last time demand was less than 4 billion coins. The decline in
coinage for commerce coincided with the recent recession. Over the past few years,                  david motl
however, the demand for circulating coins has slowly increased to levels similar to               United States Mint
those just prior to the recession.
While demand for circulating and bullion coins is strong, the Mint’s collectible numismatic
products have been on a slow decline that seems to have bottomed out in FY 2012. While the sales of recurring
numismatic products, such as United States Mint Proof Sets, United States Mint Uncirculated Coin Sets, and United
States Mint Silver Proof Sets, have continued to decline, other new products (see page 18) have closed the gap. I



as a way to mitigate these risks. For example, between FY 2009 and FY 2012 our plants’ overhead cost decreased by

prior years. Between 2009 and 2013, the Mint’s SG&A was reduced by $36.1 million. How did we achieve this?
It was accomplished through exceptional teamwork, solid internal controls, and data-driven decisions. Here are a
few examples:


  at the Denver and Philadelphia
                                                                                                   Numismatic
  plants from three-shift operations                                                               Bullion
  to two-shift operations and                                                                      Circulating
  leveled the circulating coinage
  production throughout the year.
                                 -
  ment controls to give a more
  central and strategic perspective
  on our human resource needs
  and use.


  discretionary spending and
  put controls in place to ensure
  maximum value from the dollars
  we spend.




                                                         25
                                                                                                              -
duction volumes for circulating and bullion coins and stabilized volumes for numismatic products. I am pleased to

transfer and an on-budget transfer to the Treasury General Fund (see page 21).



small, minority, or woman-owned businesses.
The statements presented here are in compliance with accounting standards issued by the Federal Accounting



to establishment of the United Sates Generally Accepted Accounting Principles. In addition, the Mint conducted a




                                                        26
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Deputy Director
United States Mint:

Report on the Financial Statements

We have audited the accompanying financial statements of the United States Mint, which comprise the
balance sheets as of September 30, 2013 and 2012, and the related statements of net cost, changes in net
position, and budgetary resources for the years then ended, and the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                                                                 27
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the United States Mint as of September 30, 2013 and 2012, and its net costs, changes
in net position, and budgetary resources for the years then ended in accordance with U.S. generally
accepted accounting principles.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, and Required Supplementary Information be presented to supplement the basic financial
statements. Such information, although not a part of the basic financial statements, is required by the
Federal Accounting Standards Advisory Board who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic financial statements, and other
knowledge we obtained during our audits of the basic financial statements. We do not express an opinion
or provide any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The Deputy Director’s Letter, Organizational Profile, Message from the Chief Financial Officer,
Required Supplementary Information, and Other Information and Appendix 1: FY 2013 Coin and Medal
Products is presented for purposes of additional analysis and is not a required part of the basic financial
statements. Such information has not been subjected to the auditing procedures applied in the audit of the
basic financial statements, and accordingly, we do not express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our report dated January 8, 2014
on our consideration of the United States Mint’s internal control over financial reporting and our report
dated January 8, 2014 on our tests of its compliance with certain provisions of laws, regulations, contracts,
and other matters. The purpose of those reports is to describe the scope of our testing of internal control
over financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards in considering United States Mint’s internal
control over financial reporting and compliance.




January 8, 2014




                                                     28
                           dePartment oF the treasury united states mint
                                          BalanCe sheets
                                                As of September 30, 2013 and 2012

                                                                               2013                            2012
                                                                                      (dollars in thousands)
assets
Intragovernmental:
  Fund Balance with Treasury (Note 3)                                  $     713,156                     $      964,517
  Advances and Prepayments (Note 5)                                            2,271                              3,232
Total Intragovernmental Assets                                               715,427                            967,749

 Custodial Gold and Silver Reserves (Note 6)                             10,493,740                        10,493,740
 Accounts Receivable, Net (Note 4)                                           20,437                            12,093
 Inventory (Notes 7 and 20)                                                 472,017                           361,612
 Supplies                                                                    14,214                            17,678
 Property, Plant and Equipment, Net (Note 8)                                183,309                           182,527
 Advances and Prepayments (Note 5)                                                1                                 1
Total Non-Intragovernmental Assets                                     $ 11,183,718                      $ 11,067,651
Total Assets (Notes 2 and 14)                                          $ 11,899,145                      $ 12,035,400

Heritage Assets (Note 9)

liabilities
Intragovernmental:
  Accounts Payable                                                     $       5,536                     $        5,641

Total Intragovernmental Liabilities                                           13,455                             14,751

 Custodial Liability to Treasury (Note 6)                                  10,493,740                        10,493,740
 Accounts Payable                                                              21,169                            21,543
 Surcharges Payable (Note 3)                                                    6,128                            11,179

 Other Actuarial Liabilities                                                 31,543                            28,525
 Unearned Revenue                                                             2,756                             1,541
 Deposit Fund Liability (Notes 10 and 12)                                        94                                94
Total Non-Intragovernmental Liabilities                                $ 10,568,585                      $ 10,574,996
Total Liabilities (Notes 10 and 14)                                    $ 10,582,040                      $ 10,589,747

Commitments and Contingencies (Notes 12 and 13)

net Position
Cumulative Results of Operations - Funds from
 Dedicated Collections (Note 14)                                          1,317,105                         1,445,653
Total Liabilities and Net Position                                     $ 11,899,145                      $ 12,035,400




                                                  29
                         dePartment oF the treasury united states mint
                                   statements oF net Cost
                                       For the years ended September 30, 2013 and 2012

                                                                            2013                            2012
                                                                                   (dollars in thousands)
numismatic Production and sales
 Gross Cost                                                          $    3,591,557                   $      2,832,988
 Less Earned Revenue                                                     (3,717,423)                        (2,912,432)
Net Program Cost (Revenue)                                                 (125,866)                            (79,444)

numismatic Production and sales of Circulating Coins
 Gross Cost                                                                  10,347                              6,765
 Less Earned Revenue (Note 16)                                              (10,347)                            (6,765)
Net Program Cost (Revenue)                                                        –                                  –

Circulating Production and sales
 Gross Cost                                                                440,608                             387,434
 Less Earned Revenue (Note 16)                                            (440,608)                           (387,434)
Net Program Cost (Revenue)                                                       –                                   –

Net Cost (Revenue) Before Protection of Assets                            (125,866)                            (79,444)

Protection of assets
 Protection Costs                                                           43,163                             42,195
 Less Earned Revenue                                                            (27)                                –
Net Cost of Protection of Assets                                            43,136                             42,195

Net Cost (Revenue) from Operations (Notes 14 and 15)                 $      (82,730)                  $        (37,249)




                                                 30
                        dePartment oF the treasury united states mint
                            statements oF Changes in net Position
                                       For the years ended September 30, 2013 and 2012

                                                                            2013                            2012
                                                                                   (dollars in thousands)
Cumulative results of operations

net Position, Beginning of year - Funds from dedicated Collections $      1,445,653                   $     1,343,652

Financing Sources:
  Transfers to the Treasury General Fund On-Budget (Note 19)               (41,999)                          (77,000)
  Transfers to the Treasury General Fund Off-Budget (Note 19)             (350,000)                                –
  Other Financing Sources (Seigniorage) (Note 16)                          166,691                           128,709
  Imputed Financing Sources (Note 11)                                       13,757                            13,043
  Transfer in Without Reimbursement                                            273                                 –
Total Financing Sources                                                   (211,278)                           64,752
Net Revenue from Operations                                                 82,730                            37,249
Net Position, End of Year - Funds from
   Dedicated Collections (Note 14)                                   $   1,317,105                    $     1,445,653




                                                 31
                          dePartment oF the treasury united states mint
                               statements oF Budgetary resourCes
                                         For the years ended September 30, 2013 and 2012

                                                                              2013                            2012
                                                                                     (dollars in thousands)
Budgetary resources:
Unobligated balance, brought forward, October 1                        $   693,852                      $       413,094
Recoveries of prior-year unpaid obligations                                  41,809                              51,025
Other changes in unobligated balance                                        (41,999)                            (77,000)
Unobligated balance from prior year budget authority, net                  693,662                              387,119
Spending Authority from Offsetting Collections                           3,961,232                            3,413,037
Total Budgetary Resources                                              $ 4,654,894                      $     3,800,156

status of Budgetary resources:
Obligations Incurred (Note 17)                                         $ 4,158,603                      $ 3,106,304
Unobligated balance, end of year
          Apportioned                                                      496,291                          669,760
          Unapportioned                                                          –                           24,092
Total unobligated balance, end of year                                     496,291                          693,852
Total Budgetary Resources                                              $ 4,654,894                      $ 3,800,156

Change in obligated Balances:
Unpaid obligations:
Unpaid obligations, brought forward, October 1                         $    276,501                     $    346,248
Obligations Incurred (Note 17)                                            4,158,603                        3,106,304
Gross Outlays                                                            (4,194,857)                      (3,125,026)
Recoveries of Prior Year Unpaid Obligations                                  (41,809)                         (51,025)
Unpaid obligations, end of year                                        $    198,438                     $    276,501

Uncollected Payments:
Uncollected customer payments from Federal
 Sources, Brought Forward, October 1                                   $      (5,930)                   $       (6,694)
Change in uncollected customer payments from Federal sources                      (34)                             764
Uncollected payments, Federal sources, end of year                     $      (5,964)                   $       (5,930)

Memorandum (non-add) entries:
Obligated balance, start of year                                       $    270,571                     $      339,554
Obligated Balance, end of year                                         $    192,474                     $      270,571

Budget authority and outlays, net:
Budget Authority, gross                                                $ 3,961,232                      $ 3,413,037
Actual offsetting collections                                            (3,985,495)                      (3,413,801)
Change in uncollected customer payments from Federal Sources                    (34)                             764
Budget Authority, net                                                  $    (24,297)                    $          –

Outlays, gross                                                         $ 4,194,857                      $ 3,125,026
Actual offsetting collections                                           (3,985,495)                       (3,413,801)
Outlays, Net                                                           $ 209,362                        $ (288,775)




                                                  32
notes to the FinanCial statements
For the years ended september 30, 2013 and 2012

         1. summary oF signiFiCant aCCounting PoliCies
         rePorting entity Established in 1792, the United States Mint (Mint) is a bureau of the
         Department of the Treasury (Treasury). The mission of the Mint is to serve the American people by
         manufacturing and distributing circulating, precious metal and collectible coins, and national medals,



         products or accessories. Custodial assets consist of the United States gold and silver reserves. These

         Balance Sheet.



         (FRBs). Additionally, the Mint sells certain circulating products directly to the public as numismatic
         items. Activities related to protection of United States gold and silver reserves are funded by the Mint
         Public Enterprise Fund (PEF). Pursuant to Public Law 104-52,

         to account for all receipts and expenses related to production and sale of numismatic items and
         circulating coinage, as well as protection activities. Expenses accounted for in the PEF include the
         entire cost of operating the bureau. Any amount in the PEF that is determined to be in excess of the
         amount required by the PEF is transferred to the Treasury General Fund.
         Treasury’s Bullion Fund (Bullion Fund) is used to account for United States gold and silver reserves.
         Separate Schedules of Custodial Deep Storage Gold and Silver Reserves have been prepared for the
         deep storage portion of the United States gold and silver reserves for which the Mint acts as custodian.
         Basis oF aCCounting and Presentation

         Circular A-136,                                     , and in accordance with accounting standards



         budgetary resources, as required by 31 U.S.C. § 5134.


         assumptions affect the reported amounts of assets and liabilities, the disclosure of contingent assets and
         liabilities, and the reported revenues and expenses. Actual results could differ from those estimates.
         Accounts subject to estimates include, but are not limited to, depreciation, imputed costs, payroll




         recognized when a liability is incurred, without regard to receipt or payment of cash.




                                                     33
earned revenues and other FinanCing sourCes (seigniorage)
Numismatic Sales: Revenue from numismatic sales to the public is recognized when products are
shipped to customers. Prices for most numismatic products are based on the product cost plus a rea-
sonable net margin. Bullion coins are priced based on the market price of the precious metals plus a
premium to cover manufacturing, marketing, and distribution costs.
Numismatic Sales of Circulating Coins: Specially packaged products containing circulating coins sold
directly to the public rather than to the FRB. These products are treated as a circulating and numismatic
hybrid product. Revenue is recognized when products are shipped to customers.
Circulating Sales: The PEF provides for the sale of circulating coinage at face value to the FRBs. Rev-
enue from the sale of circulating coins is recognized when the product is shipped to the FRBs. Revenue
from the sale of circulating coins to the FRBs and numismatic sales of circulating coins to the public
is limited to the recovery of the cost of manufacturing and distributing those coins. Seigniorage is a


Other Financing Source (Seigniorage): Seigniorage equals the face value of newly minted coins, less
the cost of production (which includes the cost of metal, manufacturing, and transportation). Seignior-
age adds to the government’s cash balance, but unlike the payment of taxes or other receipts, it does



form of coins. Therefore, the President’s budget excludes seigniorage from receipts and treats it as a


Rental Revenue


Fund BalanCe With treasury All cash is maintained at the Treasury. Fund Balance with
Treasury is the aggregate amount of the Mint’s cash accounts with the United States Government’s
central accounts and from which the bureau is authorized to make expenditures. It is an asset because
it represents the Mint’s claim to United States Government resources.
aCCounts reCeivaBle Accounts receivable are amounts owed to the Mint from the public and
other federal entities. An allowance for uncollectible accounts receivable is established for all accounts
that are more than 180 days past due. However, the bureau will continue collection action on those

           .
inventories Inventories of circulating and numismatic coinage are valued at the lower of either
cost or market. Costs of the metal and fabrication components of the inventories are determined using
a weighted average inventory methodology. Conversion costs (i.e., the cost to convert the fabricated
                                                                                                  -



and ready for sale or shipment to the public or the FRB).




                                            34
united states Custodial gold and silver reserves United States gold and silver



secures in sealed vaults. Deep storage gold comprises the vast majority of the bullion reserve and con-
sists primarily of gold bars. Deep storage silver is also primarily in bar form.
Working Stock
the Mint can use as the raw material for minting coins. Working stock gold comprises only about one
percent of the gold bullion reserve and consists of bars, blanks, unsold coins, and condemned coins.
Similarly, working stock silver consists of bars, blanks, unsold coins, and condemned coins.
Treasury allows the Mint to use some of its gold as working stock in the production of gold coins. This
allows the bureau to avoid the market risk associated with buying gold far in advance of the sales date
of the gold coins. The Mint replenishes the Treasury gold working stock at or just prior to the time the
coins are sold. Generally, the bureau does not deplete the working stock used in production. Instead,
the Mint will purchase a like amount of gold on the open market to replace the working stock used.
Treasury also allows the Mint to use silver as working stock. However, Treasury does not have enough

associated with owning silver, the Mint has entered into a silver hedging arrangement (see Note 20).
suPPlies
product. These items include plant engineering and maintenance supplies, as well as die steel and coin
dies. Supplies are accounted for using the consumption method, in which supplies are recognized as
assets upon acquisition and expensed as they are consumed.
advanCes and PrePayments Payments in advance of the receipt of goods and services are
recorded as an asset at the time of prepayment, and are expensed when related goods and services are
received or used.
ProPerty, Plant, and eQuiPment Property, plant, and equipment are valued at cost, less
accumulated depreciation. The Mint’s threshold for capitalizing new property, plant, and equipment
is $25,000 for single purchases and $500,000 for bulk purchases. Depreciation is computed on a
straight-line basis over the estimated useful lives of the related assets as follows:
         Computer Equipment                                               3 to 5 years
         Software                                                         2 to 10 years
         Machinery and Equipment                                          7 to 20 years
         Structures, Facilities, and Leasehold Improvements               10 to 30 years

Major alterations and renovations are capitalized over a 20-year period, or the remaining useful life of
the asset (whichever is shorter) and depreciated using the straight-line method, while maintenance and
repair costs are charged to expense as incurred. There are no restrictions on the use or convertibility of
general property, plant, and equipment.
heritage assets Heritage assets are items that are unique because of their historical, cultural,
educational, or artistic importance. These items are collection-type assets that are maintained for


liaBilities Liabilities represent actual and estimated amounts likely to be paid as a result of
transactions or events that have already occurred. All liabilities covered by budgetary resources can
be paid from revenues received by the PEF.



                                                35
surCharges Public laws authorizing commemorative coin and medal programs often require that
the sales price of each coin include an amount, called a surcharge, which is authorized to provide funds

account is established for surcharges collected, but not yet paid, to designated recipient organizations.
Recipient organizations cannot receive surcharge payments unless all of the Mint’s operating costs for
the coin program are fully recovered. The bureau may make interim surcharge payments during a
commemorative program if the recipient organization meets the eligibility criteria in the authorizing
public law, if the recovery of all costs of the program is determinable, and if the bureau is assured it is
not at risk of a loss. Additionally, recipient organizations must demonstrate that they have raised from
private sources an amount equal to or greater than the surcharges collected based on sales. Recipient
organizations must also prove compliance with Title VI of the Civil Rights Act of 1964 and other
applicable civil rights laws. A recipient organization has two years from the end of the program to
meet the matching funds requirement.
Funds From dediCated ColleCtions Pursuant to 31 U.S.C. § 5136, the PEF was
established as the sole funding source for Mint activities. The PEF meets the requirements of a fund



                                                                                . As non-entity and
non-PEF assets, the United States gold and silver bullion reserves are not considered to be funds from
dedicated collections.
unearned revenues These are amounts received for numismatic orders which have not yet
been shipped to the customer.
return PoliCy
be returned within seven days of receiving the order to receive a refund or replacement. Shipping
charges are not refunded. Further, the Mint will not accept partial returns or issue partial refunds.
Historically, the bureau receives few returns, which are immaterial. Therefore, no reserve for returns
is considered necessary.
shiPPing and handling The Mint reports shipping and handling costs of circulating coins and
numismatic products as a cost of goods sold. General postage costs for handling administrative mailings
are reported as part of the bureau’s general and administrative expenses.
annual, siCK and other leave Annual leave is accrued when earned and reduced as leave
is taken. The balance in the accrued leave account is calculated using current pay rates. Sick leave and
other types of non-vested leave are charged to operating costs as they are used.
aCCrued WorKers’ ComPensation and other aCtuarial liaBilities The
Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to cover
Federal civilian employees injured on the job or who have developed a work-related occupational

occupational disease. The FECA program is administered by the United States Department of Labor
(DOL), which pays valid claims and subsequently seeks reimbursement from the Mint for these paid

paid by DOL but not yet reimbursed by the bureau. There is generally a two- to three-year time period
between payment by DOL and DOL’s request for reimbursement from the Mint. The second component
is the actuarial liability, which estimates the liability for future payments as a result of past events. The
actuarial liability includes the expected liability for death, disability, medical, and miscellaneous costs
for approved compensation cases.
                                               36
ProteCtion Costs United States gold and silver reserves are in the custody of the Mint, which
is responsible for safeguarding the reserves. These costs are borne by the bureau, but are not directly
related to the circulating or numismatic coining operations of the Mint. The Protection Department is
a separate function from coining operations and is responsible for safeguarding the reserves, as well as
bureau employees and facilities.
other Cost and eXPenses (mutilated and unCurrent) Other costs and expenses
consist primarily of returns of mutilated or uncurrent coins to the Mint. Coins that are chipped, fused,
and/or not machine-countable are considered mutilated. The bureau reimburses the entity that sent in
the mutilated coins using weight formulas that estimate the face value of these coins. Uncurrent coins
are worn, but machine-countable, and their genuineness and denominations are still recognizable.
Uncurrent coins are replaced with new coins of the same denomination by the FRBs. The FRBs then
seek replacement coins from the Mint. All mutilated or uncurrent coins received by the bureau are
defaced and subsequently sold to its fabrication contractors to be processed into coils or blanks to be
used in future coin production.
taX eXemPt status As a bureau of the Federal Government, the Mint is exempt from all
taxes imposed by any governing body, whether it is a federal, state, commonwealth, local, or
foreign government.
ConCentrations The Mint purchases the coil and blanks used in the production of circulating
coins from three vendors at competitive market prices. The bureau also purchases precious metal
blanks from four different suppliers.
Contingent liaBilities
that may result in a loss to the government, but which will be resolved only when one or more future



management to have a reasonably possible chance of occurring or that cannot be estimated are included

disclosed unless they involve guarantees, in which case the nature of the guarantee is disclosed.
transFers to the treasury general Fund The Mint may transfer amounts determined
to be in excess of the amounts required for bureau operations and programs to the Treasury General

the sale of numismatic products containing circulating coins is an off-budget receipt to the Treasury
General Fund. Off-budget means that these funds cannot be used for currently-funded programs or to

the amount of cash that Treasury has to borrow to pay interest on the national debt).
Revenue generated from the sale of numismatic products is transferred to the Treasury General Fund
as an on-budget receipt. Unlike seigniorage, the numismatic transfer amount is available to the Federal


In FY 2013, the Mint transferred approximately $5 million in unclaimed surcharges from an expired

31 U.S.C. § 5134(f)(1)(B), these funds were returned to the Treasury because the recipient organization
was unable qualify for a surcharge disbursement. Because these funds were generated by a numismatic
program, they were transferred to the General Fund as an on-budget receipt.




                                            37
Budgetary resourCes The Mint does not receive an appropriation from the Congress. Instead,

funds from OMB. This apportionment is considered a budgetary authority, which allows the Mint
to spend the funds. The bureau’s budgetary resources consist of unobligated balances, transfers, and
spending authority from offsetting collections, which is net of amounts that are permanently not


hedging
a result of the changes in market prices. The bureau purchases silver in large quantities and sells an
interest in that silver to a trading partner, while maintaining physical custody and title to the silver.
Sales of silver to the trading partner are made at the same spot price that the Mint paid to obtain the

bullion coins are sold to Authorized Purchasers (APs). Repurchases of the trading partner’s interest
in the silver occurs upon sale of coins by the Mint. Repurchases are made on the same day as sales,
in the same quantity sold, and using the same spot price as was used for the sale to the AP. Each sale
to and from the trading partner carries a small transaction fee, the selling and buying fees net to a cost
of one-half cent per ounce. The bureau incurred $212 thousand in hedging fees in FY 2013, compared
to $169 thousand incurred in FY 2012.
reClassiFiCation
September 30, 2013 presentation.
2. non-entity assets
Components of Non-entity Assets at September 30 are as follows:
(dollars in thousands)                                     2013                        2012
Custodial Gold Reserves (Deep Storage)                   $ 10,355,539                $ 10,355,539
Custodial Silver Reserves (Deep Storage)                        9,148                       9,148
Custodial Gold Reserves (Working Stock)                       117,514                     117,514
Custodial Silver Reserves (Working Stock)                      11,539                      11,539
total non-entity assets                                    10,493,740                  10,493,740
total entity assets                                         1,405,405                   1,541,660
total assets                                             $ 11,899,145                $ 12,035,400

Entity assets are assets that the reporting entity has authority to use in its operations. Mint management
has legal authority to use entity assets to meet entity obligations. United States gold and silver bullion
reserves, for which the bureau is custodian, are non-entity assets.
3. Fund BalanCe With treasury
Fund Balance with Treasury at September 30 consists of:
(dollars in thousands)                                     2013                        2012
Revolving Fund                                           $ 713,062                   $ 964,423
Other Fund Types                                                94                          94
Total of Fund Balance with Treasury                      $ 713,156                   $ 964,517

status of Fund Balance with treasury
Unobligated Balance                                      $ 496,291                   $ 693,852
Obligated Balance, Not Yet Disbursed                       192,474                     270,571
Adjustment for Authority Unavailable for Obligations        24,297                           –
Non-Budgetary FBWT                                              94                          94
Total                                                    $ 713,156                   $ 964,517




                                                 38
The Mint does not receive appropriated budget authority. The Fund Balance with Treasury is entirely
available for use to support bureau operations. At September 30, 2013 and 2012, the revolving fund
balance included $6.1 million and $11.2 million, respectively, in restricted amounts for possible
payment of surcharges to recipient organizations.
4. aCCounts reCeivaBle, net
Components of accounts receivable are as follows:
(dollars in thousands)                                      September 30, 2013
                                    Gross Receivables            Allowance       Net Receivables
Intragovernmental                   $ 5,946                      $(5,946)        $      –
With the Public                       20,899                        (462)          20,437
Total Accounts Receivable           $ 26,845                     $(6,408)        $ 20,437

(dollars in thousands)                                      September 30, 2012
                                    Gross Receivables            Allowance       Net Receivables
Intragovernmental                   $ 5,946                      $(5,946)        $      –
With the Public                       12,490                        (397)          12,093
Total Accounts Receivable           $ 18,436                     $(6,343)        $ 12,093

Intragovernmental accounts receivable are fully reserved as of September 30, 2013 and 2012. The Mint
entered into an arrangement for the production and sale of a joint numismatic product with another
federal agency. The other agency owes the Mint approximately $5.9 million, which the bureau has
been unable to collect. In keeping with the bureau write-off policy, the debt has been moved to the
Allowance for Uncollectible Accounts account, which produces a net intragovernmental accounts
receivable amount of zero.
Receivables with the public at September 30, 2013, are $20 million, of which $17.5 million is owed by
fabricators for scrap, webbing, and mutilated coin. The remaining $2.5 million is owed by the public
for numismatic products. This compares to receivables with the public at September 30, 2012, of $12.5
million, of which $8.3 million was owed by fabricators for scrap and webbing, in addition to amounts
owed by the public for numismatic products. The allowance for doubtful accounts is the balance of the
accounts receivable with the public that is past due by 180 days or more. Collection action continues
on these accounts, but an allowance is recorded.
5. advanCes and PrePayments
The components of advances and prepayments at September 30 are as follows:
(dollars in thousands)                                    2013                     2012
Intragovernmental                                       $ 2,271                  $ 3,232
With the Public                                               1                        1
Total Other Assets                                      $ 2,272                  $ 3,233

Intragovernmental advances and prepayments as of September 30, 2013 and 2012 include $1.0 million
and $1.6 million, respectively, that the Mint paid the Treasury Working Capital Fund (WCF) for a
variety of centralized services. Treasury is ending its practice of collecting advances to fund the WCF
and moving towards a reimbursable activity, which is why the WCF advance balance has decreased
since FY 2012 and will continue to decrease until the balance is zero and the WCF begins to bill actual
cost for services rendered. The remaining balance of approximately $1.3 million represents payments
made to the United States Postal Service for product delivery services as of September 30, 2013,
compared to approximately $1.6 million paid at September 30, 2012. Advances with the public for
both FY 2013 and 2012 are outstanding travel advances to bureau employees who were traveling on
government business.

                                           39
6. Custodial gold and silver reserves
As custodian, the Mint is responsible for safeguarding much of the United States gold and silver
reserves, which include deep storage and working stock. The asset and the custodial liability to
Treasury are reported on the Balance Sheet at statutory rates. In accordance with 31 U.S.C. § 5117(b)

than $1.292929292 per FTO of silver are used to value the custodial assets held by the bureau.
The market values for gold and silver as of September 30 are determined by the London Gold Fixing
(PM) rate. Amounts and values of gold and silver in custody of the Mint as of September 30 are
as follows:
                                                           2013                      2012
gold - deep storage:
  Inventories (FTO)                                      245,262,897               245,262,897
  Market Value ($ per FTO)                             $    1,326.50             $    1,776.00
  Market Value ($ in thousands)                        $ 325,341,233             $ 435,586,905
  Statutory Value ($ in thousands)                     $ 10,355,539              $ 10,355,539
gold - Working stock:
  Inventories (FTO)                                          2,783,219                 2,783,219
  Market Value ($ per FTO)                             $      1,326.50           $      1,776.00
  Market Value ($ in thousands)                        $     3,691,940           $     4,942,996
  Statutory Value ($ in thousands)                     $       117,514           $       117,514
silver - deep storage:
  Inventories (FTO)                                          7,075,171                 7,075,171
  Market Value ($ per FTO)                             $         21.68           $         34.65
  Market Value ($ in thousands)                        $       153,390           $       245,154
  Statutory Value ($ in thousands)                     $         9,148           $         9,148
silver - Working stock:
  Inventories (FTO)                                          8,924,829                 8,924,829
  Market Value ($ per FTO)                             $         21.68           $         34.65
Market Value ($ in thousands)                          $       193,490           $       309,245
Statutory Value ($ in thousands)                       $        11,539           $        11,539
total market value of Custodial gold
           and silver reserves ($ in thousands)        $ 329,380,053             $ 441,084,300
total statutory value of Custodial gold
           and silver reserves ($ in thousands)        $ 10,493,740              $ 10,493,740

7. inventory
The components of inventories at September 30 are summarized below:
(dollars in thousands)                                   2013                      2012
Raw Materials                                          $ 320,092                 $ 184,383
Work-In-Process                                           62,168                    98,348
Inventory held for current sale                           89,757                    78,881
Total Inventory                                        $ 472,017                 $ 361,612

Raw materials consist of unprocessed materials and by-products of the manufacturing process and the
metal value of unusable inventory, such as scrap or condemned coins, which will be recycled into a
usable raw material. In addition, as of September 30, 2013 and 2012, the inventory includes $251.8
million and $241.5 million, respectively, which are the market values of the silver hedged. Additional




                                                  40
8. ProPerty, Plant, and eQuiPment, net
Components of property, plant and equipment are as follows:
(dollars in thousands)                                   September 30, 2013
                                    Asset Cost        Accumulated Depreciation    Total Property, Plant
                                                      and Amortization            and Equipment, Net
Land                                $     2,529       $        –                  $     2,529
Structures, Facilities and
  Leasehold Improvements                211,769          (134,074)                    77,695
Computer Equipment                       26,036           (24,000)                     2,036
ADP Software                             14,943           (14,466)                       477
Construction-In-Progress                 14,284                 –                     14,284
Machinery and Equipment                 286,587          (200,299)                    86,288
Total Property, Plant
  and Equipment, Net                $ 556,148         $ (372,839)                 $ 183,309

(dollars in thousands)                                   September 30, 2012
                                    Asset Cost        Accumulated Depreciation    Total Property, Plant
                                                      and Amortization            and Equipment, Net
Land                                $     2,529       $        –                  $     2,529
Structures, Facilities and
  Leasehold Improvements                228,896          (150,760)                    78,136
Computer Equipment                       31,232           (29,062)                     2,170
ADP Software                             16,183           (15,508)                       675
Construction-In-Progress                 16,450                 –                     16,450
Machinery and Equipment                 279,372          (196,805)                    82,567
Total Property, Plant
  and Equipment, Net                $ 574,662         $ (392,135)                 $ 182,527


The land and buildings used to manufacture circulating coinage and numismatic products are owned by
the Mint and located in Philadelphia, Denver, San Francisco, and West Point. In addition, the bureau
owns the land and buildings at the United States Bullion Depository at Fort Knox. Construction-in-
progress (CIP) represents assets that are underway, such as in the process of being readied for use, or
which are being tested for acceptability, but which are not yet being fully utilized by the Mint and,
therefore, not being depreciated. Depreciation and amortization expenses charged to operations during
the FY 2013 and FY 2012 were $26.5 million and $27.8 million, respectively.
9. heritage assets
The Mint maintains collections of heritage assets, which are any property, plant, or equipment that are

architectural characteristics. For example, the Mint’s historical artifacts include, among other things,
examples of furniture and equipment used in the bureau’s facilities over the years, as well as examples

The coin collections include examples of the various coins produced by the Mint over the years,
separated into collections of pattern pieces/prototypes, coin specimens, quality samples, and exotic
metal coin samples. The buildings housing the bureau’s facilities at Denver, West Point, San Francisco,
and Fort Knox are all considered multi-use heritage assets. The Mint generally does not place a value
on heritage assets, even though some of the coins and artifacts are priceless. However, the assets are
accounted for, and controlled for, protection and conservation purposes. Heritage assets held by the
bureau are generally in acceptable physical condition. The following chart represents the Mint’s
various collections and historical artifacts.


                                              41
Coin Collections                                        Quantity of Collections Held September 30,
                                                         2013                           2012
Pattern Pieces/Prototypes                                  1                              1
Coin Specimens                                             1                              1
Quality Samples                                            1                              1
Exotic Metal Coin Samples                                  1                              1
Total                                                      4                              4

Historical Artifacts                                    Quantity of Collections Held September 30,
                                                         2013                           2012
Antiques/Artifacts                                         1                              1
Plasters                                                   1                              1
Galvanos                                                   1                              1
Dies                                                       1                              1
Punches                                                    1                              1
Historical Documents                                       1                              1
Multi-use heritage assets                                  4                              4
Total                                                     10                             10

10. liaBilities not Covered By Budgetary resourCes
Components of Liabilities Not Covered by Budgetary Resources at September 30 are as follows:
(dollars in thousands)                                    2013                          2012
Custodial Gold Reserves (Deep Storage)                  $ 10,355,539                  $ 10,355,539
Custodial Silver Reserves (Deep Storage)                       9,148                         9,148
Working Stock Inventory - Gold                               117,514                       117,514
Working Stock Inventory - Silver                              11,539                        11,539
Other                                                             94                            94
Total Liabilities Not Covered by Budgetary Resources    $ 10,493,834                  $ 10,493,834
Total Liabilities Covered by Budgetary Resources              88,206                        95,913
Total Liabilities                                       $ 10,582,040                  $ 10,589,747

Liabilities not covered by budgetary resources represent the Mint’s custodial liabilities to the Treasury
that are entirely offset by United States gold and silver reserves held by the bureau on behalf of the


11. retirement Plans, other Post-emPloyment Costs and other
     imPuted Costs
The Mint contributes seven percent of basic pay for employees participating in the Civil Service Re-
tirement System (CSRS). Most employees hired after December 31, 1983, are automatically covered
by the Federal Employees’ Retirement System (FERS) and Social Security. A primary feature of FERS
is that it offers a savings plan to which the bureau automatically contributes one percent of basic pay
and matches employee contributions up to an additional four percent of basic pay. Employees can

does not exceed the Internal Revenue Code limit of $17,500 for calendar year 2013 (a $5,500 catch-
up contribution can be given by participants age 50 and older in addition to the $17,500 contribution).
Employees participating in FERS are covered by the Federal Insurance Contribution Act (FICA), for
which the Mint contributes a matching amount to the Social Security Administration.
                                                                                                        -
tions, it is not responsible for administering either CSRS or FERS. Administering and reporting on




                                                   42
to current employees. The cost factors of 32.3 percent of basic pay for CSRS-covered employees and
14.2 percent of basic pay for FERS-covered employees were in use for FY 2013. The CSRS and FERS
factors were 29.8 percent and 13.7 percent, respectively, in FY 2012.
The amounts that the bureau contributed to the retirement plans and Social Security for the year ended
September 30 are as follows:
(dollars in thousands)                                   2013                       2012
Social Security System                                  $ 7,325                    $ 7,335
Civil Service Retirement System                             994                      1,124
Federal Employees Retirement System
  (Retirement and Thrift Savings Plan)                    13,342                     13,503
Total Retirement Plans and Other Post-employment Cost   $ 21,661                   $ 21,962

The Mint also recognizes its share of the future cost of pension payments and post-retirement health and



recipient payments. OPM has provided certain cost factors that estimate the true cost of providing the



2012, respectively. The cost factor relating to life insurance is two-one hundredths percent (.02 percent)
of basic pay for employees enrolled in the Federal Employees Group Life Insurance Program for both
FY 2013 and FY 2012.
The amount of imputed cost related to retirement plans and other post-employment costs incurred by the


(dollars in thousands)                                   2013                        2012

Life Insurance                                                32                         32
Pension Expense                                            4,466                      3,938
Total Imputed Retirement and Postemployment Costs       $ 12,370                   $ 12,345




accordance with FASAB Interpretation No. 2. During FY 2013, the Judgment Fund paid $312 thousand
on behalf of the Mint for the clean-up of an EPA Superfund site and for a tort claim. The EPA Superfund
payment was part of a multi-year court order, which requires that the bureau and two other federal
agencies pay for cleaning up the site. Payments are made by the Judgment Fund when the judge in the
case determines that the site owner has submitted valid bills for clean-up work. Also during FY 2013,

was $1.1 million. For FY 2012, entries for Judgment Fund payments totaled about $0.7 million.
12. lease Commitments
the mint as lessee:
the General Services Administration (GSA), and the Bureau of Engraving and Printing. In addition, the



one-year, or one-year with renewable option years. The Headquarters building lease in Washington,
D.C. has a term of 20 years with renewal options. Because all of the Mint’s leases can be canceled,
there are no minimum lease payments due.


                                               43
the mint as lessor:
in the leased Headquarters building in Washington, D.C. As of September 30, 2013, the Mint sublet
in excess of 56,000 square feet in the leased building. Tenants include the Internal Revenue Service,
Treasury Executive Institute, and U.S. Marshals Service. All of the subleases are operating leases and
subject to annual availability of funding. The bureau has also entered into an agreement to sublet space
in the Headquarters building to a commercial tenant. The Mint received a security deposit from the
tenant of $94,500.
Future Projected Receipts:                        Building Sub-lease

Year 4 (FY 2014)                                     $378,000

Year 5 (FY 2015)                                      378,000

Year 6 (FY 2016)                                      404,460

Year 7 (FY 2017)                                      404,460

Year 8 (FY 2018)                                      404,460

Year 9 (FY 2019)                                      404,460

Total Future Operating Lease Receipts              $2,373,840

13. ContingenCies
The Mint is subject to legal proceedings and claims which arise in the ordinary course of its business.

from the PEF. Likewise, under the
                        (No FEAR Act, P. L. 107-174), settlements and judgments related to acts
of discrimination and retaliation for whistle blowing will be paid from the PEF. In the opinion

position or the results of its operations.


loss resulting from pending legal cases.
14. Funds From dediCated ColleCtions (Formerly earmarKed Funds)
Pursuant to 31 U.S.C. § 5136, all receipts from Mint operations and programs, including the production
and sale of numismatic items, the production and sale of circulating coinage at face value to the FRB,
the protection of government assets, and gifts and bequests of property, real or personal shall be



                                                                                           and

       . As non-entity and non-PEF assets, the United States gold and silver reserves are not included
in the funds from dedicated collections.
15. intragovernmental Costs and earned revenue



                                                                                                     -
nancial statements. The following table provides earned revenues, gross cost, and net program revenue:




                                             44
(dollars in thousands)                                      2013             2012
numismatic Production and sales
Cost:
  Intragovernmental:
    Cost of Goods Sold                                  $     19,691     $      19,607
    Selling, General and Administrative                       19,451            19,410
    Imputed Costs                                              6,395             5,884
  Total Intragovernmental Costs                               45,537            44,901
  Public:
    Cost of Goods Sold                                      3,480,551        2,722,438
    Selling, General and Administrative                        65,469           65,649
  Total Public Cost                                         3,546,020        2,788,087
Gross Cost                                                  3,591,557        2,832,988
revenue:
  Intragovernmental:
    Rent Revenues                                             3,093            3,408
    Other Intragovernmental Revenues                             26               66
  Total Intragovernmental Revenues                            3,119            3,474
  Public                                                  3,714,304        2,908,958
  Total Earned Revenue                                    3,717,423        2,912,432
Net Program Cost (Revenue)                              $ (125,866)      $   (79,444)

numismatic Production and sales of Circulating Coins
Cost:
 Intragovernmental:
   Selling, General and Administrative                  $          324   $          226
 Total Intragovernmental Costs                                     324              226
 Public:
   Cost of Goods Sold                                          8,934            5,775
   Selling, General and Administrative                         1,089              764
 Total Public Cost                                            10,023            6,539
Gross Cost                                                    10,347            6,765
revenue:
 Public                                                       10,347            6,765
 Total Earned Revenue                                         10,347            6,765
Net Program Cost (Revenue)                              $          –     $          –

Circulating Production and sales
Cost:
 Intragovernmental:
   Cost of Goods Sold                                   $      2,028     $      2,197
   Selling, General and Administrative                        13,444           13,062
   Imputed Costs                                               7,363            7,160
 Total Intragovernmental Costs                                22,835           22,419
 Public:
   Cost of Goods Sold                                        358,532          305,030
   Selling, General and Administrative                        43,494           48,551
   Other Costs and Expenses (Mutilated and Uncurrent)         15,747           11,434
 Total Public Cost                                           417,773          365,015
 Gross Cost                                                  440,608          387,434
revenue:
 Public                                                      440,608          387,434
 Total Earned Revenue                                        440,608          387,434
Net Program Cost (Revenue)                              $          –     $          –

Net Cost (Revenue) Before Protection of Assets          $    (125,866)   $     (79,444)
                                                 45
                                                          2013                        2012
Protection of assets
 Intragovernmental:
   Protection Cost                                    $          7,617            $          8,326
   Revenues                                                         27                           –
 Public:
  Protection Cost                                            35,546                      33,869
 Total Earned Revenue                                             –                           –
 Net Cost of Protection of Assets                     $      43,136               $      42,195

 Net Cost (Revenue) from Operations                   $     (82,730)              $     (37,249)

16. earned revenue and other FinanCing sourCe (seigniorage)

Production and Sales and for Numismatic Production and Sales of Circulating Coins. Circulating
Production and Sales represents coin sales to the FRB, and Numismatic Production and Sales of
Circulating Coins represents sales of circulating coins to the public (i.e., numismatic customers).
SFFAS Number 7,
                                      , limits the amount of net program revenue from production of



it relates to seigniorage. Therefore, on the Statement of Net Cost, earned revenue is recognized only
to the extent of the gross cost of production. The difference between those costs and the face value of

circulating coins sold as numismatic items is considered earned revenue and included in the category
Numismatic Production and Sales on the Statement of Net Cost.


earned revenue from the Statement of Net Costs and Seigniorage from the Statement of Changes in Net
position for the year ended September 30:
(dollars in thousands)                                 2013                        2012
Revenue-FRB                                           $  440,608                  $  387,434
Seigniorage-FRB                                          137,415                     105,850
Total Circulating Coins                               $ 578,023                   $ 493,284

Revenue-with the public                               $      10,347               $       6,765
Seigniorage-with the public                                  29,276                      22,859
Total Numismatic sales of Circulating Coins           $      39,623               $      29,624
Total Seigniorage                                     $     166,691               $     128,709

17. aPPortionment Categories oF oBligations inCurred
The Mint receives apportionments of its resources from OMB. An apportionment is an OMB-approved
plan to use budgetary resources. An apportionment typically limits the obligations an agency may incur



received in return for goods and services provided. OMB usually uses one of two categories to

quarters. Category B apportionments typically distribute budgetary resources by activities, projects,
objects, or a combination of these categories. The Mint has only category B apportionments.




                                              46
18. eXPlanation oF diFFerenCes BetWeen the statement oF Budgetary
    resourses and the Budget oF the united states government
SFFAS No. 7,
                                   , requires an explanation of material differences between the
Statement of Budgetary Resources (SBR) and the related actual balances published in the Budget of

expected to be published in February 2014 and made available through OMB. Therefore, the analysis

February 2013. The following chart displays the comparison of the FY 2012 SBR and the actual
FY 2012 balances included in the FY 2014 President’s Budget.
(rounded to millions)                                            September 30, 2012
                                                       Statement of Budgetary     President’s
United States Mint Public Enterprise Fund              Resources                  Budget
Total Budgetary Resources                              $3,800                     $3,800
Status of Budgetary Resources:
  Obligations Incurred                                 $3,106                     $3,106
  Unobligated Balances-available                          694                        694
Total Status of Budgetary Resources                    $3,800                     $3,800
Net Outlays                                            $ 289                      $ 289

19. legal arrangements aFFeCting use oF unoBligated BalanCes
The PEF statute establishes that all receipts from Mint operations and programs, including the
production and sale of numismatic items, the production and sale of circulating coinage, the protection
of government assets, and gifts and bequests of property, real or personal, shall be deposited into the

Treasury determines to be in excess of the amount required by the PEF shall be transferred to the
Treasury for deposit as miscellaneous receipts. At September 30, 2013 and 2012, the bureau
transferred excess receipts to the Treasury General Fund of $42 million and $77 million, respectively.
The FY 2013 transfer included approximately $5 million in unclaimed surcharges from an expired

U.S.C. § 5134(f)(1)(B). Because these funds were generated by a numismatic program, they were
transferred to the General Fund as an on-budget receipt. Also during FY 2013, the Mint transferred
$350 million in excess receipts, or seigniorage, to the General Fund.
20. hedging Program
At September 30, 2013 and 2012, the market value of the silver sold to the trading partner and not
yet sold by the Mint and, therefore, not repurchased from the trading partner, was $251.8 million and
$241.5 million, respectively. At September 30, 2013, neither the bureau nor the trading partner owed
the other for unpaid realized gains or losses, while at September 30, 2012, the bureau owed the trading
partner $1.2 million in unpaid realized losses. In FY 2013, the bureau recorded an unrealized loss of
$4.0 million compared to an unrealized loss of $1.9 million in FY 2012.




                                            47
21. reConCiliation oF net Cost oF oPerations (ProPrietary) to Budget
(dollars in thousands)                                           For The Years Ended September 30,
                                                                 2013                        2012
resources used to Finance activities:
 Budgetary resources obligated
   Obligations Incurred                                      $ 4,158,603                   $ 3,106,304
   Less: Spending Authority from
      Offsetting Collections and Recoveries                      4,027,338                     3,464,062
 net obligations                                                   131,265                      (357,758)
 other resources
   Transfers to the Treasury General Fund On-Budget                 (41,999)                      (77,000)
   Transfers to the Treasury General Fund Off-Budget              (350,000)                             –
   Imputed Financing from Costs Absorbed by Others                   13,757                        13,043
   Other Financing Sources (Seigniorage)                           166,691                       128,709
   Transfers in without reimbursement                                   273                             –
 Net Other Resources Used to Finance Activities                    (211,278)                       64,752
Total Resources Used to Finance Activities                           (80,013)                   (293,006)

resources used to Finance items not Part
of the net Cost of operations:
  Change in Budgetary Resources Obligated for Goods,

 Resources that fund Expenses Recognized in Prior Periods              (10)                          (272)
 Resources that Finance the Acquisition
    of Assets or Liquidation of Liabilities                        577,721                      426,508
 Other                                                              (42,448)                     (77,000)
 Total Resources Used to Finance Items
    Not Part of the Net Cost of Operations                         459,011                      318,745
Total Resources Used to Finance the Net Cost of Operations        (539,024)                    (611,751)

Components requiring or generating
resources in Future Periods
 Increase in Exchange Revenue Receivable from the Public                 –                           (165)

Total Components of Net Cost of Operations that will
Require or Generate Resources in Future Periods                          –                           (165)

Components not requiring or generating resources
 in the Current Period
 Depreciation and Amortization                                      26,499                       27,767
 Revaluation of Assets                                               7,767                        3,204
 Other                                                             422,028                      543,696

Total Components of Net Revenue from Operations
 that will not require or Generate Resources                       456,294                      574,667

Total Components of Net Revenue from Operations
 that will not require or Generate Resources
 in the Current Period                                             456,294                      574,502

Net Cost (Revenue) from Operations                           $     (82,730)                $     (37,249)

22. undelivered orders at the end oF the Period
Budgetary resources obligated for undelivered orders as of September 30, 2013 and 2012 were
$121,422 and $196,478, respectively.




                                                 48
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)
For the years ended sePtemBer 30, 2013 and 2012

         introduCtion
                                                                                                            -

         Federal Financial Accounting Standards (SFFAS) #29 Heritage Assets and Stewardship Land.
         heritage assets

         social, educational and cultural heritage of the Mint. These items include a variety of rare and semi-
         precious coin collections and historical artifacts, and are held at various Mint locations. Some of these
         items are placed in locked vaults within the Mint, where access is limited to only special authorized
         personnel. Other items are on full display to the public, requiring little if any authorization to view.
         Included in the heritage assets are the buildings housing the Mint at Denver, West Point, San Francisco,
         and Fort Knox. The Mint generally does not place a value on heritage assets, even though some of the
         coins and artifacts are priceless. However, the assets are accounted for and controlled for protection and
         conservation purposes. Heritage assets held by the Mint are generally in acceptable physical condition,
         and there is no deferred maintenance on the Denver, West Point, San Francisco, and Fort Knox buildings.


OTHER INFORMATION
dePartment oF the treasury united states mint sChedule oF sPending
                                                                   For The Years Ended September 30,
                                                                    2013                        2012
                                                                         (dollars in thousands)
         What money is available to spend?
         Total Resources                                        $4,654,894                  $3,800,156
         Less Amount Not Agreed to be Spent                       (496,291)                   (669,760)
         Less Amount Not Available to be Spent                           0                     (24,092)
         Total Amounts Agreed to be Spent                       $4,158,603                  $3,106,304

         how was the money spent?
         Personnel Compensation                                    150,393                     151,290



         Travel and transportation of persons                         1,355                      2,189
         Transportion of things                                      32,291                     29,840
         Rent, Communications, and utilities                         24,305                     25,121
         Printing and reproduction                                    1,158                      1,132
         Other contractual services                                 (15,703)                   102,487
         Supplies and materials                                  3,884,540                   2,714,895
         Equipment                                                   19,899                     23,551
         Land and structures                                         10,240                      9,945
         Insurance claims and indemnities                             1,981                          0
         Interest and dividends                                           2                          2

         Total Amounts Agreed to be Spent                       $4,158,603                  $3,106,304

         Who did the money go to?
         Federal                                                    61,485                      68,280
         Non-Federal                                             4,097,118                   3,038,024
         Total Amounts Agreed to be Spent                       $4,158,603                  $3,106,304

                                                     49
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Deputy Director
United States Mint:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of United States
Mint, which comprise the balance sheets as of September 30, 2013 and 2012, and the related statements of
net cost, changes in net position, and budgetary resources for the years then ended, and the related notes to
the financial statements, and have issued our report thereon dated January 8, 2014.

Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements as of and for the year ended September 30,
2013, we considered the United States Mint’s internal control over financial reporting (internal control) to
determine the audit procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the United States Mint’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the United States Mint’s internal control. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.




                                                                  50
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the result of
that testing, and not to provide an opinion on the effectiveness of the United States Mint’s internal control.
This report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the United States Mint’s internal control. Accordingly, this communication is not suitable for
any other purpose.




January 8, 2014




                                                      51
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Deputy Director
United States Mint:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of United States
Mint, which comprise the balance sheets as of September 30, 2013 and 2012, and the related statements of
net cost, changes in net position, and budgetary resources for the years then ended, and the related notes to
the financial statements, and have issued our report thereon dated January 8, 2014.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the United States Mint’s financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion. The results of our
tests of compliance disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on the United States Mint’s compliance. This report is an integral
part of an audit performed in accordance with Government Auditing Standards in considering the United
States Mint’s compliance. Accordingly, this communication is not suitable for any other purpose.




January 8, 2014




                                                                 52
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
aPPendiX i: Fy 2013 Coin and medal ProduCts
AMERICA THE BEAUTIFUL QUARTERS® PROGRAM

denali national ParK and Preserve—alasKa
Coin released: November 5, 2012
description
populations, Denali National Park and Preserve covers six million acres
of wild land, and is home to grizzly bears, caribou, wolves, Dall sheep,
and moose. North America’s tallest peak, Mount McKinley, is one of the
boundaries of the park. The reverse design of this coin features a Dall
sheep with Mount McKinley rising in the background.

White mountain national Forest—neW hamPshire
Coins released: January 28, 2013
description: White Mountain National Forest was established as a national
site on May 16, 1918, and is one of America’s most visited national forests.
Mount Washington, the highest peak north of the Smoky Mountains and
east of the Mississippi, is located within the park. On the coin, Mount
Chocorua, the easternmost peak of the Sandwich Range, is featured
on the reverse.

Perry’s viCtory and international PeaCe
memorial—ohio
Coins released: April 1, 2013
description: Perry’s Victory and International Peace Memorial site in Ohio
was established to honor those who fought in the Battle of Lake Erie during
the War of 1812 and to commemorate the long-lasting peace among the
United Kingdom, Canada, and the United States. The reverse features the
statue of Master Commandant Oliver Hazard Perry with the Peace
Memorial located in the distance.

great Basin national ParK—nevada
Coins released: June 10, 2013
description: Great Basin National Park has exceptional examples of
regional geology, biologic diversity, and scenic grandeur. With more than
40 miles of perennial streams and 400 springs, it is an oasis in the desert.
The park has numerous Bristlecone Pine groves (as depicted on the reverse
of the quarter), some with trees older than 4,000 years.

Fort mchenry national monument and historiC
shrine—maryland
Coin released: August 26, 2013
description: Built between 1799 and 1802 in Baltimore, Md., Fort McHenry
was meant to defend the city of Baltimore. When the United States declared
war against Great Britain in June 1812, the people of Baltimore were certain

                                                         53
the British would attack the city, so they strengthened defenses at the fort.
Their fears were realized when the British attacked Fort McHenry in
September 1812, after burning Washington. Francis Scott Key composed

from a British ship, where he was held until the battle was over—and the
Americans won.

PRESIDENTIAL $1 COIN PROGRAM

grover Cleveland Presidential $1 Coin (seCond term)
24th President, 1893-1897
Coin released: November 15, 2012
description: President Cleveland served two non-consecutive terms in




the country was experiencing economic challenges, made even worse by the
Sherman Silver Purchase Act. Cleveland persuaded Congress to repeal it
and, with the aid of Wall Street, maintained the gold reserves. After leaving
the White House for the second time, Cleveland retired to Princeton, N.J.,
dying there in 1908.

William mcKinley Presidential $1 Coin
25th President, 1897-1901
Coin released: February 19, 2013
description: After serving as a major in the Union Army, McKinley practiced
law in Ohio. He served in the U.S. House of Representatives for 14 years
and as governor of Ohio for two terms before being elected President.
During his administration, the United States won the Spanish-American War
(and colonized Puerto Rico, Guam, and the Philippines), annexed Hawaii,
and expanded international trade. He is credited with promoting industry
and keeping the United States on the gold standard. McKinley won a second
presidential election, but shortly after his inauguration, an assassin shot him
at the Pan-American Exposition in Buffalo, N.Y. He died eight days later.

theodore roosevelt Presidential $1 Coin
26th President, 1901-1909
Coin released: April 11, 2013
description: Roosevelt was well known as a Rough Rider and naturalist,
but he was also drawn to public service at an early age. One year after

after that, his public career spanned a range of appointments broken by

during the Spanish-American War. While governor, he was elected to the

McKinley’s term and then was elected in 1904. He saw the Panama Canal


                                                           54
completed and won the Nobel Peace Prize for ending the Russo-Japanese
War. After running unsuccessfully for president in 1912, he went on a South

in 1919. While President, Roosevelt took an active interest in the design of
American coinage, personally commissioning renowned sculptor Augustus

Indian head gold eagle.

William hoWard taFt Presidential $1 Coin
27th President, 1909-1913
Coin released: July 9, 2013
description: Taft is the only American to have served his country as both
President and Chief Justice. He began his public service career by serving
on the Superior Court of Cincinnati, then as the Solicitor General of the
U.S. and as a judge on the U.S. Court of Appeals. He was appointed
Governor-General of the Philippines, then Secretary of War. More interested
in the legal precedent than in politics, Taft was not popular, but he was a

created the United States Chamber of Commerce, reorganized both the State
Department and the federal budget process (which prompted the Budget and
Accounting Act of 1921), and proposed income taxes (which led the way
for the Sixteenth Amendment to the Constitution). After losing the 1912
election, he served as a professor of law at Yale University and as president
of the American Bar Association. President Warren G. Harding nominated
Taft for Chief Justice, a position he held until 1930. He retired for health
reasons, and died shortly thereafter.

FIRST SPOUSE GOLD BULLION COIN AND BRONZE MEDAL
PROGRAM

aliCe Paul and the suFFrage movement First sPouse
gold Coin and Bronze medal—administration
oF President Chester arthur, 1881-1885
Coin and medal released: October 11, 2012
description: Ellen Arthur, Chester Arthur’s wife, died before he served as

Alice Paul, born during Arthur’s term, appear on the obverse of the First
Spouse Gold Coin accompanying President Arthur’s term. Ms. Paul
dedicated her life to securing equal rights for all women, and because of her




                                                         55
FranCes Cleveland First sPouse gold Coin
and Bronze medal—First lady, 1886-1889
Coin and medal released: November 15, 2012
description: When she was 21, Frances married President Cleveland, a
long-time family friend 27 years older than she. Although she was young
and beautiful, it was her charm that won the hearts of the American public.
While in the White House, she gave two receptions per week, making sure
that one was on Saturday afternoons, when women with jobs could attend.

workers lined up in the regal East Room or, weather permitting, on the
south lawn to shake the hand and have a personal word with the young and
popular First Lady.

Caroline harrison First sPouse gold Coin
and Bronze medal—First lady, 1889-1892
Coin and medal released: December 6, 2012
description

White House, she taught ceramic painting classes to Washington women,
and decorated numerous pieces of White House china. As First Lady, she
organized pieces of past Presidential china into a systematic collection for
later display. She secured funding for much-needed renovations as well
as funding for the Johns Hopkins University Medical School—with the
condition that it admit women. She died of tuberculosis while her husband



FranCes Cleveland First sPouse gold Coin
and Bronze medal—First lady, 1893-1897
Coin and medal released: December 20, 2012
description: Frances Cleveland was the only First Lady to occupy the
White House in two non-consecutive administrations. This time, she was

12-year span, which prompted her to hire a kindergarten teacher to teach

occupied with charitable works for women, supporting young musicians,
African Americans, and educational opportunities for women..




                                                          56
2013 native ameriCan $1 Coin
Coins released: April 23, 2013
description: This coin commemorates the Delaware Treaty of 1778, the

The mutual defense treaty allowed American troops to pass through the
Delaware Tribe’s land to attack the British fort at Detroit, Michigan. Under
the treaty, the U.S. recognized the Delaware Nation’s sovereignty. It also
gave the Delaware Nation the option of joining other tribes in the Ohio
region to form a state with the Delaware Tribe at the head to become part
of the U.S. Confederation, with representation in Congress. Although the
statehood option was never used, it foreshadowed the later acknowledgment
of tribes as partners in the federal system. The reverse of this coin features
a turkey, howling wolf, and turtle, all symbols of the clans of the
Delaware Tribe.

5-star generals Commemorative Coin Program
Coins released: March 21, 2013
mintage limit: 100,000 gold, $5, 500,000 silver, $1, 750,000 clad
half-dollar
description: Public Law 111-262 authorizes the United States Mint to mint
and issue $5 gold, $1 silver, and half-dollar clad coins to commemorate
United States Army 5-Star Generals Douglas MacArthur, George C. Marshall,

either alumni of or instructors at the United States Army Command and
General Staff College (CGSC). This is the 132nd anniversary of the
founding of the CGSC. All surcharges are authorized to be paid to the



2013 girl sCouts oF the usa
Centennial Commemorative Coin Program
Coins released: February 28, 2013
mintage limit: 350,000
description: Authorized by Public Law 111-86, these proof and uncirculated
silver dollar coins commemorate the 100th anniversary of the establishment
of the Girl Scouts of the United States of America. Established in 1912,
there are more than 3.2 million members throughout the United States
and its territories today. A $10 per coin surcharge is authorized to be paid to
Girl Scouts of the USA.




                                                           57
ProFessor muhammad yunus
Congressional gold medal
medal awarded: April 17, 2013
description: A Congressional Gold Medal was awarded to Dr. Muhammad



Grameen Bank in Bangladesh in 1983 to provide loans to poor people on




themselves from poverty. This successful model of lending has been copied
by more than 100 countries worldwide. His work with the poor led to
various humanitarian awards, including the 2006 Nobel Peace Prize and
the 2009 Presidential Medal of Freedom.

16th street BaPtist ChurCh BomBing viCtims
Congressional gold medal
medal awarded: September 10, 2013
description: A Congressional Gold Medal was awarded to Addie Mae Col-
lins, Denise McNair, Carole Robertson, and Cynthia Wesley to commemo-
rate the lives they lost when they were killed by a bomb that exploded at
the Sixteenth Street Baptist Church in Birmingham, Alabama on September
15, 1963. This tragedy shocked the nation and galvanized the Civil Rights
Movement, paving the way for President Lyndon B. Johnson to sign both
the Civil Rights Act of 1964 and the Voting Rights Act of 1965 into law.

2013 ameriCan eagle Platinum ProoF Coin Program
Coin released: July 18, 2013
description: In 2009, the Mint introduced a new six-year platinum proof
coin program highlighting the six principles embodied in the Preamble to



America against a backdrop of interlocking gears, symbolizing the
interconnection of power between the states and the national government.
The reverse designs in the Preamble Series are inspired by narratives
prepared by the Chief Justice of the United States at the request of the Mint.




                                                          58
CONNECTING AMERICA THROUGH COINS
           www.usmint.gov
